U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




                             Census Bureau


                   Census 2010:
         Final Report to Congress
                      Final Report No. OIG-11-030-I
                                       June 27, 2011




             FOR PUBLIC RELEASE




                  OIG Office of Audit and Evaluation
                                        Report In Brief
                                                 U.S. Department of Commerce Office of Inspector General
                                                                       June 27, 2011



Why We Did This Review                  2010 Census: Final Report to Congress (OIG-11-030-I)
The Supplemental Appropria-
tions Act of 2008 gave the Census
Bureau an additional $210 million       What We Found in 2010
to help cover spiraling 2010
decennial costs stemming from
                                        This is our final report on the 2010 Census. As such, it includes a summary of our findings over the
the bureau’s problematic efforts to     last decade related to the Census Bureau’s management of the decennial census. The bureau faced
automate major field operations,        challenges in the following areas:
major flaws in its cost-estimating
methods, and other issues. The          1.   maintaining senior management continuity;
Act’s explanatory statement             2.   managing information technology requirements and its large field data collection contract;
required the bureau to submit           3.   ensuring transparent and effective budgeting processes and decision making;
to Congress a detailed plan and
timeline of decennial milestones        4.   scheduling operations effectively and implementing project management controls and contin-
and expenditures, as well as a
                                             gency plans;
quantitative assessment of as-          5.   budgeting for and hiring a workforce appropriately sized for each operation;
sociated program risks, within 30       6.   providing consistent training to a large workforce and having that workforce conduct operations
days. OIG was required to provide            according to procedures;
quarterly reports on the bureau’s
                                        7.   maintaining sufficient quality control over its field operations;
progress against this plan.
                                        8.   managing and updating its maps and addresses;
This report’s objective was to
summarize our findings, examine         9.   eliminating duplicate enumerations while counting the population experiencing homelessness;
the 2010 Census programs, and                and
provide recommendations for im-         10. Addressing respondent reluctance and enumerator safety.
provements that will benefit future
decennial censuses.

                                        Top Management Challenges for 2020
Background
First conducted in 1790, decen-         Considering current population trends and likely cost growth, the Government Accountability Office
nial censuses have fulfilled a vital    recently estimated that if 2010 were used as a model for the next census, the total price tag could
constitutional mandate. The 2010        rise to as high as $30 billion; the bureau’s own estimate is $22 billion. By either estimate, such cost
Census enumerated more than             growth is simply unsustainable. Census must make fundamental changes to the design, implementa-
308 million people and cost over        tion, and management of the decennial census to obtain a quality count for a reasonable cost. And
$12 billion. The results provide        in order to decide on, design, and implement these changes, this effort must start now. This decade’s
important data that will guide          early years are critical for setting the course for how well the 2020 count is performed and how much
Congressional apportionment and
                                        it will ultimately cost.
redistricting, as well as the distri-
bution of more than $400 billion   In our view, the Census Bureau faces six challenges it must effectively address for 2020. These chal-
of government funding annually.    lenges necessitate changing the decennial design to contain costs, increase accuracy, and reduce the
The 2010 Census represents the     burden on respondents. Importantly, they also call for fundamental improvements in decennial plan-
largest peacetime mobilization in  ning, management, testing, and transparency to help ensure that the missed opportunities of previous
American history. For this massive decades are not repeated in 2020:
undertaking, Census integrated 44 1. Revamp cost estimation and budget processes to increase accuracy, flexibility, and transparency.
separate operations (with a total of
some 9,400 program- and project-        2.   Use the Internet and administrative records to contain costs and improve accuracy.
level activities). Temporary bureau     3.   Implement a more effective decennial test program using the American Community Survey as a
management staff ran 494 local               test environment.
offices and managed over 600,000
temporary workers to count the          4.   Effectively automate field data collection.
population. The bureau completed        5.   Avoid a massive end-of-decade field operation through continuous updating of address lists and
the count on time and matched the            maps.
2000 decennial’s final household
mailback participation rate of 74       6.   Implement improved project planning and management techniques early in the decade.
percent.                                Over the coming decade, we will monitor how well the bureau addresses these challenges.
U.S. Department of Commerce                                                                                                       Final Report
Office of Inspector General                                                                                                      June 27, 2011


                                                                 Contents


Part I: Top Management Challenges for the 2020 Census: Lessons Learned from 2010; Looking
Ahead to 2020 ................................................................................................................................. 1
   Challenge 1: Revamp Cost Estimation and Budget Processes to Increase Accuracy, Flexibility,
   and Transparency ........................................................................................................................ 4
   Challenge 2: Use the Internet and Administrative Records to Contain Costs and Improve
   Accuracy...................................................................................................................................... 7
   Challenge 3: Implement a More Effective Decennial Test Program Using the American
   Community Survey as a Test Environment............................................................................... 10
   Challenge 4: Effectively Automate Field Data Collection........................................................ 12
   Challenge 5: Avoid a Large-scale End-of-Decade Field Operation Through Continuous
   Updating of Address Lists and Maps ........................................................................................ 15
   Challenge 6: Implement Improved Project Planning and Management Techniques Early in the
   Decade ....................................................................................................................................... 17
   Challenge 7: Establish a Census Bureau Director Position That Spans Presidential
   Administrations ......................................................................................................................... 19
Part II: Summary of OIG Findings on 2010 Decennial IT Acquisition and Operations .............. 20
   Chapter 1: Field Data Collection Automation (FDCA) ............................................................ 22
   Chapter 2: Address Canvassing................................................................................................. 27
   Chapter 3: Update/Leave (U/L)................................................................................................. 31
   Chapter 4: Update/Enumerate (U/E) ......................................................................................... 33
   Chapter 5: Enumeration at Transitory Locations (ETL) ........................................................... 36
   Chapter 6: Service-Based Enumeration (SBE) ......................................................................... 38
   Chapter 7: Nonresponse Operations: NRFU and Vacant Delete Check (VDC) ....................... 42
   Chapter 8: Coverage Follow-up (CFU), Field Verification (FV), and Count Review.............. 48
Part III: OIG Recommendations ................................................................................................... 51
Summary of Agency and OIG Comments .................................................................................... 54
Appendix A: Objectives, Scope, and Methodology ..................................................................... 55
Appendix B: Local Census Offices Visited by OIG Staff During 2010 Census .......................... 57
Appendix C: Bibliography: OIG Reports and Testimony on the 2010 Decennial Census.......... 58
Appendix D: Bureau Response to Draft Report ........................................................................... 63
U.S. Department of Commerce                                                           Final Report
Office of Inspector General                                                          June 27, 2011


               Part I: Top Management Challenges for the 2020 Census:
                 Lessons Learned from 2010; Looking Ahead to 2020


The Supplemental Appropriations Act of 2008 gave the Census Bureau an additional
$210 million to help cover increasing 2010 decennial costs that resulted from the bureau’s
problematic efforts to automate major field operations, major flaws in its cost-estimating
methods, and other issues. The act’s explanatory statement required the bureau to submit to
Congress a detailed plan and timeline of decennial milestones and expenditures, as well as a
quantitative assessment of associated program risks. The act also required the Office of Inspector
General (OIG) to provide quarterly reports on the bureau’s progress against this plan. This
document is the sixth and final quarterly report to Congress and the Census Bureau summarizing
the findings stemming from our oversight of the 2010 Census, with a focus on the significant
change needed to improve 2020 Census operations. See appendix A for a complete description of
the objectives, scope, and methodology we followed during our oversight.
Decennial field operations were successfully completed in 2010. However, this constitutionally
mandated function carried with it a high cost and a level of risk that should not be repeated. The
bureau is now preparing an assessment of decennial accuracy, to be issued next year, and should
take full advantage of the results to build upon its successes and overcome weaknesses as it plans
and designs the 2020 Census.
The next decennial must incorporate far-reaching approaches in order to contain costs while
maintaining or improving accuracy in enumerating an ever-growing and increasingly hard-to-
count population. The next census thus calls for new design elements and careful planning and
testing—along with unprecedented transparency on the part of the Census Bureau, including
early and continuous engagement with key stakeholders.
This report is informed by the oversight OIG provided over the last decade to both the planning
of the decennial and its execution. Our 2010 decennial oversight program involved over 100 OIG
staff, and we visited every state and the District of Columbia to observe temporary Census
workers conducting office operations, checking address lists and maps, and interviewing
respondents in person and over the phone—and we went back to Census Bureau headquarters to
track final Census count review operations. We spoke with numerous Census Bureau officials,
met with regional managers, interviewed dozens of local Census office teams, surveyed hundreds
of Census employees, and observed hundreds of temporary field workers. We provided feedback
to stakeholders on activities at headquarters and from the field—in reports, in testimony, and in
real-time communication. Census was responsive when addressing problems we identified in the
field, taking immediate action to rectify the most urgent issues.
From this perspective, we saw not only the Census Bureau’s missed opportunities, but also its
successes. For example, the bureau followed through on its plans to transition the decennial
“long form” to the American Community Survey (ACS), leaving the entire decennial survey with
only 10 short-form questions designed for easier response. Census also conducted a strategic
communications campaign, which contributed to a better-than-expected mailback participation




                                                1
U.S. Department of Commerce                                                                                      Final Report
Office of Inspector General                                                                                     June 27, 2011


rate1 of 74 percent nationally. And the 2009 address canvassing operation used handheld
computers, representing the bureau’s first foray into computer-automated field data collection for
a decennial census.
However, plans to automate field data collection had to be greatly curtailed. Problems
developing and implementing the handheld computers and related automation compelled the
bureau to abandon its plan to use the devices during the nonresponse follow-up (NRFU)
operation and forced it to make late-stage preparations for a pen-and-paper NRFU. This change
led to major cost escalation, disruption of workflow, and high operational risk. Because of these
circumstances and cost estimation weaknesses, the lifecycle cost for the 2010 decennial—
originally estimated at more than $11 billion—exceeded $12 billion.
Considering the current trends in population and likely cost growth, the Government
Accountability Office (GAO) recently estimated that if 2010 were used as a model for the next
census, the total price could rise to as high as $30 billion; the bureau’s own estimate is $22
billion (see figure 1). By either estimate, such cost growth is unsustainable; Census must make
fundamental changes to the design, implementation, and management of the decennial census to
obtain a quality count for a reasonable cost. And in order to decide on, design, and implement
these changes, this effort must start now. This decade’s early years are critical for determining
how well the 2020 count will be performed and how much it will ultimately cost.


                      Figure 1. Increasing Lifecycle Costs for Decennial Census
                                        (2000–2020 Projected)

                                                                               2020 costs 
                                                                              (projected):
                                                                             $22–30 billion



                                                                    2010 costs:
                                                                    $12 billion



                                                     2000 costs: 
                                                      $8 billion



                                              Source: OIG analysis of U.S. Census Bureau information

In recent decades, change to the design of the decennial census has been slow. However, Census
has made incremental improvements to operations, coverage methods, and automation.
Nevertheless, important initiatives designed to improve accuracy and contain costs—in areas
such as use of administrative records, address file improvements, and automation of field data


                                                            
1
  The participation response rate represents the percent of forms mailed back by households that received them, excluding the
forms deemed “undeliverable” by the U.S. Postal Service that typically represent vacant or nonexistent housing units. The
mailback response rate for all mailed or hand-delivered forms was 63 percent.


                                                                              2
U.S. Department of Commerce                                                            Final Report
Office of Inspector General                                                           June 27, 2011


collection—have had only limited success, leading to recurring calls for change at the beginning
of each new decade.
This part of the report covers seven challenges that, in our view, the Census Bureau must
effectively address for the 2020 Census. These challenges include changes to the decennial
design aimed at cost containment, accuracy, and reduction in respondent burden. Importantly,
they also call for fundamental improvements in decennial planning, management, testing, and
transparency to help ensure that the missed opportunities of previous decades are not repeated in
2020.
Top management challenges for the 2020 Census are as follows:

                                                                     Relevant Chapters
                          Challenge
                                                                        (See Part II)
                                                                          Chapter 1
                                                                          Chapter 2
1. Revamp Cost Estimation and Budget Processes to Increase
                                                                          Chapter 5
   Accuracy, Flexibility, and Transparency
                                                                          Chapter 6
                                                                          Chapter 7
2. Use the Internet and Administrative Records to Contain                 Chapter 2
   Costs and Improve Accuracy                                             Chapter 7
3. Implement a More Effective Decennial Test Program Using                Chapter 1
   the American Community Survey as a Test Environment                    Chapter 7
                                                                          Chapter 1
4. Effectively Automate Field Data Collection                             Chapter 3
                                                                          Chapter 7
                                                                          Chapter 1
5.  Avoid a Massive End-Of-Decade Field Operation Through                 Chapter 3
    Continuous Updating of Address Lists and Maps                         Chapter 4
                                                                          Chapter 5
                                                                          Chapter 1
6. Implement Improved Project Planning and Management
                                                                          Chapter 4
   Techniques Early in the Decade
                                                                          Chapter 6
7. Establish a Census Bureau Director Position That Spans
                                                                          Chapter 1
   Presidential Administrations



The Census Bureau and the Department of Commerce have the primary responsibility for
successfully meeting most of these challenges. However, because fully addressing two of these
challenges—the greatly expanded use of administrative records and the continuity of Census
Bureau leadership—requires legislative action, the bureau and Department need to work closely
with Congress to effect improvements.

 




                                                3
U.S. Department of Commerce                                                            Final Report
Office of Inspector General                                                           June 27, 2011


Challenge 1: Revamp Cost Estimation and Budget Processes to Increase Accuracy,
Flexibility, and Transparency

Throughout the decade, the Census Bureau remained uncertain of what the 2010 decennial’s total
cost would ultimately be. With a lifecycle cost estimate of more than $11 billion in 2003, the
projection topped $14 billion in 2008—due, in part, to escalating IT costs and major flaws in the
bureau’s cost assumptions—and ultimately totaled in excess of $12 billion as decennial
operations concluded in 2010. These fluctuating estimates made planning difficult and consumed
an excessive amount of time and attention on the part of the Department, Congress, Office of
Management and Budget (OMB), and other stakeholders. This instability was characteristic of
the weaknesses in the bureau’s planning, cost estimation, and budgeting processes.
In 2008, GAO reported that the Census Bureau’s 2010 lifecycle cost estimate lacked adequate
documentation and was not comprehensive, accurate, or credible. The bureau’s cost estimate did
not adequately document changes in cost assumptions and did not include certain cost factors,
such as the cost of fingerprinting temporary workers. For example, the 2009 address canvassing
operation was over budget by $88 million because changes in productivity and workload were
not taken into account. Without a well-grounded cost estimate, the bureau’s annual budget
requests were not reliable indicators of actual funding needs for planning and conducting the
decennial. The bureau needs to develop a comprehensive cost estimate, including known cost
factors, and update the estimate throughout the decade to account for changes in decennial plans,
assumptions, and incurred costs.
The bureau has informed us that as part of its 2020 decennial planning efforts to date, it has
developed initial budget scenarios for four proposed enumeration options. Among these options
are targeted address canvassing, administrative records use, and an Internet response option. For
each of the options for which a budget scenario was developed, the bureau calculated a range of
estimated costs, each with minimum and maximum amounts. The bureau plans to update these
scenarios annually to improve future budget requests.
In addition to improving the quality of budget estimates, the Census Bureau also needs to
identify areas for achieving cost savings. We have reported on the bureau’s practice of over-
hiring and training temporary employees to offset turnover, no-shows, and dropouts from
training (a practice known as frontloading). Frontloading frequently resulted in hiring many
more enumerators than needed. For example, more than 140,000 temporary field employees
received training (for at least 24 hours) but worked 40 or fewer nontraining production hours—
costing the bureau in excess of $80 million in the process. Overhiring is to be expected with any
large operation; nonetheless, training these employees cost the bureau a great deal of money but
provided little production (see figure 2).
We have recommended that the bureau reevaluate its practice of frontloading; the bureau also
needs to develop a better process to estimate workload and develop and revise cost assumptions.
In general, less labor-intensive field operations would reduce wage, training, and travel costs—
and potentially reduce the number of field offices, along with space requirements and associated
IT infrastructure.




                                                4
U.S. Department of Commerce                                                            Final Report
Office of Inspector General                                                           June 27, 2011


Planning for the 2010 decennial often lacked transparency as the bureau made changes to the
originally conceived census design. For example, in a June 2001 document presenting the
potential lifecycle cost savings of the 2010 decennial design, the bureau estimated $155 million
in savings from maintaining and updating the address list throughout the decade and using a
targeted approach to address listing. This design would have enabled Census to avoid a massive
end-of-decade address listing operation. In March 2004, Census issued an internal planning
memorandum stating that it had abandoned this approach; however, key stakeholders were not
aware of this change.

   Figure 2. Cost of Training Employees Who Worked Only 0–5 Days




Source: OIG analysis of U.S. Census Bureau information

Similarly, the Census Bureau did not maintain a transparent budget management process during
the decennial census. It is to be expected that a program of this size would shift funds from
activities running surpluses to cover those running deficits. However, the bureau did not
maintain adequate traceability of these shifts, which prevented visibility into overruns and
underruns in the various decennial activities and operations.
The bureau’s 2020 decennial strategy of developing a set of budget scenarios and identifying key
decision points is a positive approach to addressing the high degree of uncertainty that inevitably
exists early in the decennial planning cycle. Census should continue to make its planning
transparent, and stakeholders must recognize that once a baseline design and cost estimate are


                                                         5
U.S. Department of Commerce                                                            Final Report
Office of Inspector General                                                           June 27, 2011


developed, periodic modifications are unavoidable. Design and budget changes will occur as a
result of research and testing, as a better understanding of the implementation details emerges,
and as new information and analysis become available. Thus, the bureau should obtain
agreement as early as possible on the basic design components of the 2020 decennial; develop
realistic and well-substantiated budget estimates; and work continually with the Department,
OMB, and Congress to discuss design changes and make appropriate budget modifications as
circumstances warrant.




                                                6
U.S. Department of Commerce                                                                                          Final Report
Office of Inspector General                                                                                         June 27, 2011


Challenge 2: Use the Internet and Administrative Records to Contain Costs
and Improve Accuracy

By not using the Internet and administrative records as key decennial data collection methods for
2010, the Census Bureau turned aside promising cost reductions and data quality improvements.
Cost savings from Internet use could potentially have accrued from reducing paperwork and
associated data capture costs—for the 2010 decennial, the bureau processed over 164 million
paper forms—and less expensive field work, with a smaller temporary work force. Quality could
likely have improved through easier access to foreign-language Internet questionnaires and
automated checks of census responses for consistency and completeness.

Administrative records—information collected for the administration of programs and provision
of services by federal, state, and local governments and commercial entities—could have
reduced the cost of the nonresponse operations (which, at $2 billion, were the most expensive of
the 2010 decennial; see figure 3) and helped the bureau avoid inaccurate enumerations. Greater
use of administrative records also offered the potential to enhance the decennial census in a
number of important areas, ranging from improving the master address file (MAF) to finding
households or individuals who may otherwise be missed.

                 Figure 3. 2010 Census Field Operations Costsa
                       $2,500,000,000



                       $2,000,000,000



                       $1,500,000,000



                       $1,000,000,000



                        $500,000,000



                                  $0
                                        Address Canvassing      Special      Nonresponse    Field Verification & 
                                                             Enumerations*    Operations    Coverage Followup


                  a
                      Includes enumerating people living in group homes and facilities, and
                      transitory locations such as campgrounds and marinas, as well as hand-
                      delivering questionnaires or conducting doorstep interviews for special
                      areas or populations.
                      Source: OIG analysis of U.S. Census Bureau and public information.

Using the Internet to collect census data is an established practice in other countries. Statistical
agencies in Australia, Canada, and New Zealand, among others, have employed the Internet to
collect census data, and the United Kingdom’s plan for its 2011 census includes an Internet
option.

An Internet response option would not be unprecedented in this country either. The Census
Bureau offered an Internet response option in the 2000 decennial but did not publicize its


                                                                   7
U.S. Department of Commerce                                                             Final Report
Office of Inspector General                                                            June 27, 2011


availability. While it received only 65,000 unique electronic submissions, the Internet was
deemed a viable response option. The bureau did not, however, implement this mode for
collecting 2010 decennial information and consequently executed paper-intensive operations,
which were difficult to manage, prone to error, and expensive.

The bureau included an Internet response option in its Decennial Response Integration System
contract, which was awarded in 2005. However, in 2006, the bureau eliminated use of the
Internet for this purpose, maintaining that it did not increase response and citing IT security
concerns and cost. In 2008, it again rejected an Internet option due to operational and security
concerns. The bureau now intends to use the Internet in 2020 and is planning an Internet test as
part of the ACS. Given the widespread availability of the Internet and the public’s reliance on it,
the 2020 Census should contain an Internet response option—one, of course, that addresses IT
security concerns.

Administrative records would be useful to the decennial by providing, on a large scale,
individually submitted data on the receipt of services (such as housing assistance, social services,
and health services) and for the payment or documentation of taxes. As various federal
government agencies already expend resources to collect these data, directing Census to collect
the same information could be considered duplicative effort and costs. The Census Bureau has
conducted years of research on the use of these personal administrative records, developing a
thorough understanding of the processing, matching, and deletion of duplicates for billions of
records on an annual basis. Prior censuses and surveys also provide data that the bureau could
reuse in support of the 2020 decennial census.

These personal administrative records contain information that individuals have already provided
to the government, such as their names, addresses, age, sex, race, and a wide variety of
demographic, socioeconomic, and housing information. Census began a formal administrative
records program in the 1990s to supplement and inform decennial, demographic, and geographic
programs. In fact, the Census Bureau has been using the U.S. Postal Service address file, which
is an administrative record, to support key address list development activities. It has also
employed a variety of administrative records to support its economic and demographic statistics
programs. However, so far the bureau has not made extensive use of administrative records for
the decennial. By December 1996, the bureau had abandoned a major part of its plan to use
administrative records for the 2000 decennial. For 2010, efforts to contain costs focused on
automating field data collection; administrative records were only used for limited applications,
including the location of group quarters and for the selection of cases for coverage follow-up
operations.

For 2020, the use of administrative records to contain costs and improve quality must be
explored. Recently, the National Research Council (NRC)—in line with research plans proposed
within the Census Bureau in the past and now being considered, at least in part, for 2020—urged
the bureau to assess the use of administrative records in the 2020 decennial to

   •   improve the Census MAF by identifying missing addresses or entire localities that would
       benefit from a targeted address canvassing operation;




                                                 8
U.S. Department of Commerce                                                                        Final Report
Office of Inspector General                                                                       June 27, 2011


       •      help validate decisions about inconsistent response data concerning particular individuals
              or households (e.g., a college student listed as living with his or her parents could be
              verified or edited using administrative records);

       •      target specific field operations by focusing fieldwork on missing respondents or
              households in order to improve coverage or identify specific subpopulations that require
              special enumeration procedures;

       •      evaluate census results (coverage measurement and evaluation);

       •      provide an alternative to last-resort interviews in which, after six unsuccessful interview
              attempts, people who are not household members—such as neighbors who may not be
              able to answer all of the questions and who may resent the burden of responding—are
              interviewed;2 and

       •      provide input to methods currently used to fill in missing questionnaire information.

Further, the NRC saw the potential use of administrative records to help eliminate duplicate
persons without committing the time, effort, and expense of a follow-up or field operation.

With the advent of the Internet, popular sentiment about uses of personal information has been
evolving; however, the public’s view concerning extensive use of administrative records for the
decennial census is unknown. By definition, the constitutional mandate to conduct a census
affects the privacy of every American—whether it is accomplished by in-person interviews,
mail, the Internet, or telephone, or through the use of existing records. Census must determine
the public’s willingness to accept the bureau’s use of information collected and maintained by
other government agencies—such as Social Security information, tax records, and food stamp
registers—for decennial census purposes. The bureau should keep stakeholders—including the
American public—apprised of its progress as it researches, plans, and refines the use of
administrative records.

The Census Bureau recently restructured its organization in an effort to revitalize its Research
and Methodology Directorate; of the five centers the bureau is establishing, the new Center for
Administrative Records Research and Applications is designed to help with related decennial
innovations. However, the current statutory system does not require the level of interagency
cooperation that would allow the Census Bureau to utilize administrative records to their full
potential. The bureau possesses appropriate authority to request and use administrative records
from all government sources under 13 U.S.C. § 6, and the Privacy Act permits other agencies to
disclose their records to the bureau. In contrast, relevant legislation governing other federal
agencies either does not compel those agencies to provide their records to the bureau in response
to requests, or states that agencies are only required to provide certain information to the bureau,
limiting the use of the requested information. Congressional guidance on the disclosure and
permitted uses of administrative records for the decennial census would greatly benefit the
Census Bureau.
                                                            
2
 These proxy interviews are discussed further in Part II, Chapter 7: Nonresponse Operations: NRFU and Vacant
Delete Check (VDC).


                                                               9
U.S. Department of Commerce                                                                                Final Report
Office of Inspector General                                                                               June 27, 2011


Challenge 3: Implement a More Effective Decennial Test Program Using the American
Community Survey as a Test Environment

To prepare for the 2010 decennial, the Census Bureau began planning and testing, including
three major site tests in 2004, 2006, and 2008, early in the decade. In addition to these tests,
Census conducted an overseas enumeration test and three questionnaire content and design tests
in 2003, 2005, and 2007 (see figure 4).

           Figure 4. Census Bureau Decennial Testing (2000–2010)

 Additional tests:
     2003 National Census (Questionnaire) Test
     2004 Overseas Enumeration Test
     2005 National Census (Questionnaire) Test
     2007 National Census (Questionnaire) Test
                                                                                                Start of 2010 Decennial
                                                                                                Field Operations
                   2000 Census Research and
                   Experimentation Program
                                                                   Second Site Test
                                                                   Census Day (April 1, 2006)




   1998     1999    2000     2001     2002        2003     2004      2005     2006     2007      2008     2009     2010




                                                                                     Third Site Test
                                                                                     (Dress Rehearsal)
                                                                                     Census Day (May 1, 2008)
                                                 First Site Test
                                                 Census Day (April 1, 2004)
Source: OIG analysis of U.S. Census Bureau and public information 

Although the Census Bureau scheduled its site tests at 2-year intervals, each one took place over
3 years of planning, implementation, and evaluation—resulting in overlap with prior or
subsequent tests. This overlap made it difficult for the bureau to build on experiences and
incorporate feedback from previous tests into the operational design it examined in the next test.
Further, the results of the research and experimentation program from the 2000 Census were
intended for use in the design and test of the 2010 Census; however, this program was not
completed until 2004, after planning for the first site test was well underway.

Scheduling proved particularly problematic in the case of the handheld computers. The bureau
tested internally developed prototypes in both 2004 and 2006 and found serious problems in both
tests. Because of the poor handheld performance and the tests’ timing, the bureau did not
effectively use these tests to help define requirements for the handheld computer contract.

Weaknesses in the decennial test program were also evident in the portion of the 2006 test that
the bureau conducted on an American Indian reservation. The objective was to improve coverage


                                                           10
U.S. Department of Commerce                                                                                      Final Report
Office of Inspector General                                                                                     June 27, 2011


of reservation populations, which are considered hard to count.3 The enumeration procedures
tested showed almost no effect on mitigating long-standing obstacles to producing an accurate
count. Yet the bureau had no time to develop and test possible improvements.

The bureau had planned to conduct a large-scale operational test of major components,
operations, and systems, beginning with address canvassing in 2007 followed by enumeration
operations in 2008. This test was intended to be a “dress rehearsal” of the 2010 decennial.
However, for a number of reasons—including the late decision to revert to a paper-based NRFU
operation—Census cancelled the majority of the operations to be tested. As a result, actual
decennial operations became the proving ground for enumerating some traditionally difficult
groups, such as the homeless, residents of military bases, and group quarters residents.

The bureau is now planning to conduct a larger number of smaller tests to more closely align its
research with its testing program. Census also plans to utilize the ACS, a mandatory nationwide
survey that collects housing and population information throughout the decade (data are used
primarily for the distribution of federal funds but not for congressional apportionment).
Following the 2000 decennial, the ACS replaced the decennial long form in order to provide
more current information. The ACS is conducted on a continuing basis, sampling about 250,000
addresses every month. By expanding the sample to accommodate decennial testing, the ACS
will provide a viable test environment for conducting smaller assessments of new processes and
procedures. We suggest that Census use the ACS to explore areas such as questionnaire content
and design, response options (such as the Internet), use of administrative records (on Internet and
administrative record use, see challenge 2), and targeted field data collection procedures and
methodologies. These data collection procedures include risks to the safety of Census staff who
conduct interviews, as described in Part II, Chapter 7: Nonresponse Operations: NRFU and
Vacant Delete Check (VDC). This risk requires remedy by the Department, law enforcement
agencies, and Congress to explicitly address safety concerns. Conducting smaller tests in the
ACS (or other surveys, such as the Current Population Survey) and special censuses could also
facilitate the introduction of new technologies for the 2020 decennial. This would provide the
Census Bureau a greater opportunity to evaluate new technology in the field before the decennial
census, as well as pave the way for the bureau to use decennial technology in other surveys and
thus amortize the necessarily large IT investments over a number of programs—rather than
building systems for one-time use.

Although we advocate a series of smaller tests throughout the decade, we also believe it is
important for the bureau to ultimately conduct a large-scale test that assesses the functionality of
major decennial operations and IT systems to verify that these components work together as
intended in an operational environment. If possible, the bureau should conduct this large-scale
operational test earlier in the decade, in order to provide more time to solve problems and make
improvements before the start of 2020 decennial operations.




                                                            
3
  Hard-to-count populations include but are not limited to the homeless, migrant farm workers, foreign-born individuals, African
Americans, American Indians and Alaska natives, native Hawaiians and other Pacific Islanders, and linguistically isolated
populations. 


                                                              11
U.S. Department of Commerce                                                              Final Report
Office of Inspector General                                                             June 27, 2011


Challenge 4: Effectively Automate Field Data Collection

Leading up to the 2010 decennial, Census planned to reduce the costs of field operations by
using inexpensive mobile handheld computing devices—equipped with global positioning
system capabilities—to automate the workload assignment, data collection, and information
processing functions. If executed well, automation promised to reduce labor costs, improve
quality, and enhance operational efficiency.

In 2006, the Census Bureau awarded a $595 million field data collection automation (FDCA)
contract for the development of more than half a million handheld computers. However, the
project experienced constant setbacks, including technical problems, escalating costs, and missed
deadlines. Poor performance in the 2007 address canvassing dress rehearsal exacerbated
concerns that the handhelds would not be ready in time. Census regional offices, responsible for
the massive decennial data collection operation, would be particularly affected by problems with
the project; they expressed major concerns about the change to an automated field data collection
process.

In April 2008, the decision was made to abandon the plan to use the handhelds for NRFU so that
the bureau and the contractor could focus on improving the handhelds for the following year’s
decennial address canvassing operation. This change necessitated last-minute preparations to
make this $2 billion operation paper based.

The main reason for the significant problems the bureau encountered was the failure of senior
bureau managers in place at the time to anticipate the complex IT requirements involved in
automating the decennial. Census had originally intended to develop the handhelds in-house and
tested prototypes in both the 2004 and 2006 site tests. However, the devices had serious technical
problems in both tests. Based on the 2004 test, the bureau decided to contract out the project. But
by then it was late in the decade to plan and implement a complex acquisition that could meet the
ambitious, fixed deadlines for the dress rehearsal tests (set to start in 2007) and decennial
operations (set to start in 2009).

In addition to these problems, the bureau’s requirements continued to change frequently after the
contract was awarded. It was not until January 2008—nearly 2 years after contract award—that
the bureau finally delivered a first draft of a complete, user-validated set of requirements for the
handhelds and supporting infrastructure. It had no contingency plan in the event the handhelds
proved unusable. The problems experienced in developing the handhelds and the need to revert
to paper-based operations for all but address canvassing so close to the start of the decennial
introduced a high degree of risk into NRFU and other operations.

Automating field data collection—replacing the millions of paper forms and maps that
enumerators carry and reduce forms processing—remains a viable goal for 2020. However,
based on its 2010 experience, Census must change its approach to planning, managing, and
overseeing complex IT acquisitions including making improvements in the following areas:

   •   Requirements development. The bureau did not successfully convey the IT system
       requirements to its contractor or collaborate effectively to ensure the contractor fully
       understood the requirements. These weaknesses in requirement specifications and


                                                 12
U.S. Department of Commerce                                                            Final Report
Office of Inspector General                                                           June 27, 2011


       collaboration, along with poor financial planning, caused the FDCA contract to increase
       by nearly $200 million while delivering far less capability than planned. The same
       problem occurred in previous censuses: during our oversight of the 2000 decennial, we
       reported that inadequate control of requirements disrupted the development of the data
       capture system and caused major cost growth. Census must establish an effective process
       for defining and controlling requirements.

   •   Cost estimation and budgeting. At the time the FDCA contract was awarded, funding
       requests were significantly less than what the project would cost based on the bureau’s
       own analysis. According to bureau documentation, for the first 6 months of the
       contract—when having adequate resources for planning, requirements analysis, and
       design was critical—the project had only about half the needed funding, leading to the
       first of several replanning efforts. Moreover, as requirements changed, the bureau did not
       incorporate the resulting cost increases into project cost and budget estimates. For 2020
       decennial acquisitions, the bureau should develop well-substantiated cost estimates,
       promptly determine the cost impacts of requirements and other changes, update project
       cost estimates and budget requests accordingly, and ensure that sufficient funds are
       available in project budgets.

   •   Independent assessments. Until late in the development process, key stakeholders
       remained unaware of the serious problems with the FDCA contract. Independent
       reviews—performed by experts not under the supervision, direction, or control of the
       program—can provide the Census Bureau, Department of Commerce, and other
       stakeholders with an objective second opinion on cost, schedule, and technical progress
       and critical issues.

   •   Field participation. Effectively introducing new technology for field operations means
       re-engineering longstanding business processes and requires the solid support of the
       regional offices, which are responsible for conducting the decennial field operations. The
       bifurcated structure of the decennial—with the bulk of planning taking place at
       headquarters but responsibility for the fieldwork in the regions—makes this a significant
       challenge. With ultimate responsibility for overseeing the enumerators who collect
       census information, regional Census staff must be integrally involved in and supportive
       of automation efforts.

   •   Transparency and oversight. An analysis conducted in 2004 by a bureau contractor
       indicated that the scope of FDCA carried a high risk. The Department lacked an effective
       oversight function and did not successfully address the high-risk nature of the acquisition.
       For 2020, departmental oversight beginning early in the acquisition process and at key
       milestones is essential. If performed well, oversight can reveal early in the process
       whether the bureau has considered all reasonable project alternatives—and whether it is
       assuming too much risk. In this way, the Department can work with the bureau to address
       problems before unnecessary costs accumulate. Supported by early independent cost
       estimates and independent assessments, Department oversight can play a critical role in
       ensuring decennial IT investments stay on track.




                                                13
U.S. Department of Commerce                                                            Final Report
Office of Inspector General                                                           June 27, 2011


For the 2010 decennial, the Census Bureau tried to contain costs by automating the largest, most
costly decennial operations. Unfortunately, it lacked the knowledge and experience it needed to
manage and implement the large, complex IT acquisition that was necessary to do so. Census
must improve its IT acquisition processes and start early in the decade to prepare for successfully
implementing an automated data collection solution for NRFU, as well as the other doorstep
operations. For a more complete discussion of our findings related to FDCA, see part II,
chapter 1, of this report.




                                                14
U.S. Department of Commerce                                                             Final Report
Office of Inspector General                                                            June 27, 2011


Challenge 5: Avoid a Large-Scale End-of-Decade Field Operation Through Continuous
Updating of Address Lists and Maps

The Census Bureau describes “an accurate, comprehensive, and timely [address] list” as “one of
the best predictors of a successful census.” If the list is incomplete or inaccurate, people may be
missed or counted more than once. Errors in the bureau’s MAF can also increase costs, the
public burden, and enumerator workload, by requiring visits to nonexistent or duplicate locations
in NRFU.

Because the Census Bureau enumerates the population for the purposes of apportionment,
redistricting, and distribution of federal funds, all addresses in the decennial census must be
associated with a geographic location. The bureau attempts to locate all MAF addresses spatially
in its nationwide automated geographic system (called the Topologically Integrated Geographic
Encoding and Referencing system, or TIGER). Throughout the last decade, the bureau updated
the MAF/TIGER database through a limited number of automated, clerical, and field operations.

Over the decade, the bureau also implemented a major initiative to align all street features to
GPS map coordinates. Although this resulted in significant improvements to the maps’ accuracy,
the bureau cancelled further operations mid-decade to fund the escalating field data collection
automation costs. Meanwhile, some of Census’s early-decade accomplishments would not have
reflected new housing developments and roads, necessitating updates during address canvassing.

The bureau conducted its large-scale address canvassing operation in spring 2009. During this
operation, more than 160,000 temporary employees were instructed to walk every street of the
country to update the maps and address list according to specified protocols.

Address canvassing for the 2010 Census was costly, totaling $444 million and running nearly 25
percent over the initial budget (and 19 percent over a revised budget). It was also error prone: our
field observations during the operation revealed that the temporary workforce hired for this task
did not consistently draw roads or locate housing units accurately on maps. While address
canvassing was underway, we reported that listers were not following important procedures. The
bureau responded promptly by communicating to field staff and regional directors about the
issue; however, by then many areas had completed production. Our observations and the
bureau’s implementation of ad hoc operations to fix errors confirmed numerous map and address
list problems resulting from the address canvassing operation.

We have long-standing concerns about the efficacy and cost effectiveness of this operation. For
example, following the operation in the 2000 Census, we made numerous recommendations
aimed at improving Census’s strategy for updating the MAF. After the 2006 site test of address
canvassing, we recommended that the bureau perform an analysis of the costs and benefits of
canvassing 100 percent of the nation’s housing, and consider whether alternative, less costly
strategies for developing the address list for the 2010 decennial were feasible. The bureau
responded that anything less than 100 percent address canvassing was unacceptable. A 2004
report by NRC similarly called for more analysis of the necessity of conducting a complete
address canvassing operation and questioned the cost-benefit of this decision, stating that Census
should justify why selective targeting of areas for address canvassing is either infeasible or
inadequate—and how the costs of the complete canvass compare against the benefits.


                                                15
U.S. Department of Commerce                                                          Final Report
Office of Inspector General                                                         June 27, 2011


Now that the 2010 Census is over, the Census Bureau now plans to update the address list and
maps continuously throughout the decade and consider three address canvassing options for the
2020 decennial—full, targeted, and no additional address canvassing. The bureau should keep
stakeholders apprised of its progress on continuous updating and should maintain transparency
into its decision making regarding the extent of address canvassing that will be implemented at
the end of the decade. This decision should be supported by relevant research data and cost-
benefit analyses.




                                               16
U.S. Department of Commerce                                                                Final Report
Office of Inspector General                                                               June 27, 2011


Challenge 6: Implement Improved Project Planning and Management Techniques
Early in the Decade

The Census Bureau describes the decennial census as the nation’s largest peacetime
mobilization. For the 2010 Census, the bureau planned, managed, and tracked over 9,000
activities spanning several years and representing 44 major operations. Such a complex operation
is inherently risky; Census identified more than two dozen major program risks, each requiring
program monitoring and contingency plan development. Effective project planning and
management are particularly critical, not only to allay major cost growth but also to meet the
immovable decennial deadline with accurate results: by law, the bureau must deliver
apportionment counts to the President within 9 months of the census date, which in recent
decades has equated to December 31 of the year the decennial takes place.

To meet this deadline, the bureau must have a well-defined decennial plan—with consistent task
plans, schedules, and cost estimates. Initially, the plan will necessarily be preliminary and should
identify various alternative designs. As the bureau assesses its alternatives and design, cost, and
budget information become firm, it should establish the baseline plan and refine the details.
Despite the scale of the bureau’s planning effort and its gains in project management as
compared to 2000, our quarterly reports to Congress since August 2009 have identified
significant problems in project planning and risk management that Census must resolve in order
to contain costs and meet the 2020 Census schedule:

   •   The bureau did not use key project management best practices in planning and managing
       the 2010 decennial. Specifically, it did not (1) ensure that all applicable tasks were
       entered into its project management system; (2) provide a consistent level of detail for all
       tasks; (3) verify, up front, the correctness of all start and end dates entered; and (4) use its
       project management system to track the cost of performing each task. The bureau
       therefore had incomplete and unreliable information for monitoring progress.

   •   Without complete and accurate schedule information, the Census Bureau could not
       calculate the decennial’s critical path—the set of activities that must be completed on
       schedule in order for the project to be completed on time—leaving the bureau unable to
       assess the impact on the overall schedule of delays in these tasks. To compensate, Census
       developed a list of separate critical activities based on management judgment and
       updated it weekly; however, in some cases, inaccurate scheduling information weakened
       the list’s reliability as a management tool.

   •   Having omitted key data from its project management system, the bureau could not
       connect the cost, schedule, and progress of tasks—and therefore could not fully assess the
       likely impact on the final decennial cost of variances in the cost and schedule of
       individual tasks. Linking these critical factors, an approach called earned value
       management, is required by OMB on major investment projects and is a best practice
       because it can alert management to potential problems sooner than data on expenditures
       examined alone.




                                                 17
U.S. Department of Commerce                                                              Final Report
Office of Inspector General                                                             June 27, 2011


   •   In addition, the schedule did not account for the entire decade of work leading up to the
       decennial. Lack of a full lifecycle schedule contributed to many of the problems we
       identified with the 2010 testing strategy—for example, not enough time was allotted for
       test results to inform future testing (see challenge 3). We support the bureau in its efforts
       to create a lifecycle schedule for the 2020 Census.

   •   Although the bureau’s 2010 risk management program represented a significant
       improvement over the previous decennial census, disciplined risk identification and
       contingency planning occurred late in the decade. In fact, two contingency plans
       remained incomplete even as decennial operations ended.

By employing best practices for program and risk management early in the decennial cycle, and
following through during the decade, the bureau can achieve a more effective planning and
management process. While the bureau’s project management system had the capability to
support these practices, the system was not fully utilized for 2010. Census needs to improve how
it uses its project management system in order to obtain accurate, reliable, and complete data for
decennial planning and oversight.

Establishing uniform processes to develop the baseline schedule early—and integrate it with
budget, cost, and contract information—will help provide the bureau with objective management
information. For the 2020 decennial, the bureau should implement appropriate risk management
from the outset and finalize contingency plans prior to the start of decennial operations. These
improvements will provide more reliable information to Census management and stakeholders;
promote transparency in decennial planning, management, and oversight; help contain risk and
cost; and reduce the likelihood of late-decade budget request increases in the 2020 decennial.

The bureau acknowledges the need to improve project management and is taking actions to
establish a program management office under the proposed 2020 decennial directorate. Early
discussions indicate the office will lead and document a strategy for schedule, budget,
acquisition, performance management, and risk management that will effectively address
management weaknesses from the 2010 decennial.




                                                 18
U.S. Department of Commerce                                                            Final Report
Office of Inspector General                                                           June 27, 2011


Challenge 7: Establish a Census Bureau Director Position That Spans Presidential
Administrations

In our 2008 Top Management Challenges report, we described the Census Bureau—particularly
headquarters—as “an insular organization that eschews open dialogue with outside parties and
even its own regional operations.” Considerable progress toward changing the culture has been
made since that time, but as planning begins for the 2020 Census, leadership continuity is
essential to maintain momentum. Because of the decennial’s long planning cycle, it is
particularly critical that one individual be able to set the direction and lead the Census Bureau
with vision, strength, and consistency.

Such leadership continuity has not been characteristic of previous decennial census cycles. For
example, there have been six Census Bureau directors—two of them acting—responsible for the
2010 Census throughout its lifecycle. And, as shown in figure 5, the current director was
appointed less than 9 months before Census Day (April 1). Similarly, the 2000 decennial
lifecycle saw five directors, two of them acting. Census leadership usually changes when new
presidential administrations take office, and the transition frequently entails a long nomination
and confirmation process. Therefore, leadership gaps may well occur when critical decisions
(such as those involving budget, operational design, and questionnaire content) affecting the next
decennial census must take place.

       Figure 5. Tenure of Census Bureau Directors, 1989–Present




Source: U.S. Census Bureau

A solution considered in 2010 by the 111th Congress was to implement a fixed term for the
Census Bureau director, staggered to begin and end in such a way as to minimize disruption to
decennial planning, testing, and implementation. A leadership structure that promotes tenure can
advance needed change and help the bureau recognize when to retire outdated methods,
implement new methods with greater success, and reap the potential benefits of innovation.




                                                19
U.S. Department of Commerce                                                              Final Report
Office of Inspector General                                                             June 27, 2011


      Part II: Summary of OIG Findings on 2010 Decennial IT Acquisition and
                                  Operations


The 2010 Census was an immense undertaking, attempting to count accurately the more than 308
million people living in America today. About 800,000 temporary employees worked on the
census; at its peak, the decennial had approximately 600,000 temporary employees working at
one time. The bureau first began planning for this census in 2000, and throughout the decade
OIG has tracked the bureau’s progress toward the 2010 count. In particular, we reviewed
decennial operations and the performance of several decennial systems, including monitoring the
Paper-Based Operations Control System (PBOCS) Census developed as a result of weaknesses
with the Field Data Collection Automation (FDCA) initiative. (See chapter 1.)

In this section of the report, we will examine several aspects of the 2010 decennial that, based on
our observations, had major impacts on costs, accuracy, and operational efficiency. Between
April 2009 and October 2010, OIG staff traveled to Census sites nationwide, visiting every state
and observing operations at approximately one third of the 494 local Census offices. This
coverage gave us the opportunity to make real-time recommendations for improvements to
Census as situations warranted. While in the field, OIG staff observed Census employees
performing address canvassing (see chapter 2); delivering questionnaires, conducting doorstep
enumeration, and enumerating people experiencing homelessness (chapters 3 through 6);
enumerating households that did not return questionnaires and verifying vacant or nonexistent
housing units (chapter 7); and conducting telephone follow-up on returned questionnaires as well
as performing many other activities (chapter 8). Our staff also attended field operations’ training
sessions, interviewed employees, and observed activities and management practices at local
Census offices. (See appendix B for a list of offices visited by OIG staff during decennial
oversight.)

The table below lists the major decennial field operations for 2010. Our observations and
findings concerning these operations are provided in the referenced chapters.

                                                                   2010 Field Operation
    2010 Decennial Operation              OIG Observations
                                                                        Timeline a
    Address Canvassing                          Chapter 2              3/30–7/9/2009

    Group Quarters Validation                   Chapter 2             9/28–10/23/2009

    Remote Alaska                                    —                 1/25–4/30/2010

    Group Quarters Advance Visit                     —                 2/1–3/19/2010

    Update/Leave                                Chapter 3               3/1–26/2010

    Remote Update/Enumerate                          —                 3/22–5/29/2010

    Update/Enumerate                            Chapter 4              3/22–6/22/2010




                                                20
U.S. Department of Commerce                                                                           Final Report
Office of Inspector General                                                                          June 27, 2011


                                                                                  2010 Field Operation
         2010 Decennial Operation                              OIG Observations
                                                                                       Timeline a
         Enumeration at Transitory Locations                        Chapter 5       3/19–4/16/2010

         Service-Based Enumeration                                  Chapter 6        3/29–31/2010

         Group Quarters Enumeration                                     —             4/1–6/4/2010

         Nonresponse Follow-up (NRFU)                               Chapter 7         5/1–9/6/2010

         NRFU Vacant Delete Check                                   Chapter 7        7/1–8/25/2010

         Field Verification                                         Chapter 8        7/27–9/7/2010

         Coverage Follow-up                                         Chapter 8        4/5–8/30/2010

         Count Review                                               Chapter 8       2/22–8/13/2010

         Census Coverage Measurement                                    —         9/8/2008–9/27/2011
         a
             From the Census Master Activity Schedule



These decennial operations include the Census Bureau’s coverage of people living in various
geographical areas beyond the mailout/mailback population. For 2010, Census introduced
various innovations and improvements to decennial operations, including its methods for
identifying group quarters, its service-based enumeration approach to counting people
experiencing homelessness, and additional questionnaire probes for coverage improvement. Also
new for the 2010 Census was the separate operation to enumerate people who live in boats;
motorized recreational vehicles; trailers that are pulled by car or trucks; or any other type of
housing that is movable, mobile, or temporary, such as tents and hotel rooms.

However, decennial census methods have essentially remained the same since 1960, the first
decennial census to use a mailout questionnaire and thus self enumeration as the primary method
to collect enumeration information.4 And, while the Census Bureau succeeded in automating
address canvassing for 2010, technological improvement for field data collection methods have
otherwise remained relatively static. The following chapters discuss issues we identified in our
oversight of the 2010 Census and improvements for 2020. We suggest enhancements to
operations that would afford some improvements if they are conducted in a manner similar to the
2010 Census. Other enhancements—such as use of the Internet, administrative records, and
continuous map and address list updating—are more far-reaching and, in our view, critical to
achieving significant cost containment while also increasing accuracy.




                                                            
4
 The 1970 and 1980 decennials marked the advent of the Census Bureau’s coverage improvement efforts, targeting
special populations and unique living situations.


                                                                   21
U.S. Department of Commerce                                                                             Final Report
Office of Inspector General                                                                            June 27, 2011


Chapter 1: Field Data Collection Automation (FDCA)

FDCA:  A contract put in place to provide automated systems for streamlining the decennial
census field operations. The program covered developing, procuring, and maintaining a handheld
computer to enable data collection, GPS address verification, and administrative applications, as
well as managing the local Census office computing and telecommunications environment.

                          Workload*                            Actual Cost              Percent Budget Spent

• Address canvassing (handheld
  computer and operations control
  system)                                                      $790 million                        133
• Group quarters validation
  (operations control system)
• Local Census office infrastructure
* Nonresponse follow-up (handheld computer and operations control system) and other activities were removed
from the contract.

A key component of the Census Bureau’s 2010 decennial re-engineering plan was the initiative
to automate field data collection, in which handheld computers would replace paper-based data
collection for the two largest field operations (address canvassing and nonresponse follow-up, or
NRFU).5 If executed well, automation held the promise of reducing labor costs and data entry
errors and enhancing operational efficiency.

Despite the expected benefits, automation also presented substantial risks. The FDCA project
was the largest, most complex system integration effort the Census Bureau had ever undertaken
and the bureau was inexperienced in planning and managing such a large integration contract.
Also, statutory deadlines for delivering apportionment and redistricting population counts left
little room for schedule delays.

Early in the decade, Census attempted to internally develop the technology required to automate
field data collection. By 2004, however, the bureau abandoned its in-house development efforts
and began the process to contract out the project. In April 2006, Census awarded a $595 million
cost-reimbursement contract to Harris Corporation of Melbourne, Florida, for a comprehensive
automation solution for field data collection operations. The Harris FDCA contract was to
furnish (1) a national network infrastructure connecting headquarters with 12 regional offices,
500 local census offices, and 600,000 handheld computers for address canvassing and NRFU; (2)
an operations control system for managing both the automated and the paper-based field work;
and (3) local and regional office automation, training materials, technical support, and other
operation-related needs. The bureau’s late start in contracting out for these extensive IT
requirements introduced significant risk into the project.

                                                            
5
  For address canvassing, Census verifies and updates the addresses on its master address list and their locations on
Census maps. The nonresponse follow-up operation was the bureau’s method of enumerating households that
received questionnaires by mail or in person but did not return them.


                                                               22
U.S. Department of Commerce                                                                 Final Report
Office of Inspector General                                                                June 27, 2011


The FDCA project soon began to experience complications. The first large-scale operational test
of FDCA (part of the Census Bureau’s dress rehearsal for the 2010 decennial) for address
canvassing in April 2007 revealed numerous technical problems, partially due to insufficient
time to test the system thoroughly before deployment. Problems continued to mount, the rate of
spending was exceeding available funds, and the Census Bureau had difficulty developing a
cohesive requirements baseline for the decennial.

It was not until late 2007 that project stakeholders and outside observers alike realized that
FDCA was in serious trouble. Harris then formally requested the delivery of all decennial
requirements, informing the Census Bureau that otherwise it would not be able to finish the
project. And Mitre, a consulting firm supporting Census in the FDCA effort, warned Census
executives that requirements were not ready, FDCA’s cost was unpredictable, time was running
out, and risk to the decennial was so great that the bureau must develop a contingency for a
paper-based NRFU operation.

                                    In response, Census formed a team that, in January 2008,
                                    finally established the first complete draft of decennial
                                    baseline requirements. But projected FDCA costs had
                                    escalated dramatically; Harris estimated that the cost for both
                                    new and clarified requirements ranged from $950 million to
                                    $1.3 billion, far exceeding the original $595 million contract
                                    value.

                                         Census convened a risk reduction task force to determine how
                                         best to address these concerns. In April 2008, the bureau
                                         implemented the task force’s recommendation to use handheld
                                         computers only for the upcoming address canvassing
                                         operation, cancelling their use for NRFU. Both Census and
 A temporary employee using the          Harris lacked the capacity to simultaneously develop
 handheld computer to verify the address handhelds for the two separate operations—address
 and place housing unit GPS coordinates
 on the census map.                      canvassing and NRFU. While the decision ensured that the
 Source: U.S. Census Bureau              handhelds, tested in the address canvassing portion of the
                                         dress rehearsal, would be ready in time for the 2010 operation,
it introduced a new risk—not enough time to test a paper-based NRFU solution in a dress
rehearsal prior to full-scale decennial operations. Census reported at that time that this change
would increase decennial cost by about $1.1 billion.

In November 2008, Census modified the FDCA contract. Even though this reduced Harris’s
responsibilities, the contract’s cost increased to $798 million—over $200 million more than
FDCA’s original cost. Contract cost increased due to a number of factors: (1) the full scope and
complexity of operational needs had not been specified in the original FDCA contract; (2)
although Harris did not have to implement handhelds for NRFU, it had already devoted
considerable costs to the development effort; (3) changes in assumptions and costs of handheld
computer hardware caused address canvassing costs to rise; and (4) funding shortfalls forced
project revisions and delays.




                                                  23
U.S. Department of Commerce                                                             Final Report
Office of Inspector General                                                            June 27, 2011


However, FDCA did provide some valuable support to the decennial. With a narrower scope and
improved collaboration, Census and Harris were able to develop FDCA in time to provide
handheld computers and the operations control system for decennial address canvassing. Reports
from Census regions indicated that the handheld computers met operational needs and that
managers found the ability to manage operations in real time—a new capability afforded by the
handhelds—would be beneficial for future surveys and censuses.
FINDINGS

1. Ineffective oversight allowed FDCA problems to persist. Neither the Department of
   Commerce nor Census had an oversight process that recognized soon enough FDCA’s high
   level of risk. Contributing to the risk level were the project’s scope and complexity, its
   insufficient budget (as discussed below) and unrealistic schedule, and the bureau’s own
   challenges with system development. Although an October 2004 Mitre report informed
   Census that the scope of the full plan for FDCA was a high-risk endeavor, Census did not
   alter its plan and in June 2005 the Department approved spending authority of $115 million,
   the first installment for the full FDCA plan, and continued to fund the project until it neared
   failure.

   The Commerce Information Technology Review Board was established to improve the
   management of major IT investments as directed by the Clinger Cohen Act of 1996.
   According to its charter, the board assesses whether to approve major IT investments based
   on whether they fulfill agency missions, employ sound methodologies, and have acceptable
   risk. However, the board’s review procedures were informal, and it did not establish key
   decision points and criteria to assess project readiness. Also, the board did not require the
   Census Bureau to adhere to any specific reporting requirements or present measurable
   management information about FDCA.
   Similarly, the Census Bureau’s IT governing board did not have oversight authority for
   decennial systems. Rather, the then-Deputy Director of the bureau and then-Associate
   Director of the decennial census, in conjunction with the Decennial Leadership Group
   (consisting of senior executives in charge of Census directorates) were responsible for
   overseeing decennial programs. However, they focused mainly on operational issues and did
   not regularly evaluate system acquisition risk. It should also be noted that the Census Bureau
   changed directors four times from the time the FDCA contract was awarded to its
   implementation (2006 to 2010).
2. FDCA was adversely affected by weak budget forecasting and financial management. In
   2001, Census developed a model to estimate the total lifecycle cost of the 2010 decennial.
   The FDCA portion of the total cost was an estimated $545 million. This estimate was used
   for the FY 2006 budget, and it became the initial operating budget for the project. However,
   the assumptions for the estimate were inadequately supported and did not include funds for a
   project management office or a contingency reserve to compensate for program risk and
   uncertainty. The contractor’s plan for FY 2006 cost twice as much as Census had budgeted,
   necessitating re-planning the development effort. In FY 2007, the FDCA budget fell short by
   $45 million; in FY 2008, the shortfall was $143 million.



                                                24
U.S. Department of Commerce                                                           Final Report
Office of Inspector General                                                          June 27, 2011


   Census started to lose track of contract costs as requirements were identified and the
   contractor developed engineering change proposals for implementing them. In response to
   intense schedule pressure, the bureau would approve change proposals before the contractor
   had a chance to develop its costs. As a result, accurate cost-to-complete estimates were
   unavailable to help decide which requirements were affordable. Census found several ways
   to cover costs, but delays in funding disrupted the contractor’s development activities.
   Ultimately, the project had to be limited because of prohibitive costs.
3. Ineffective requirements management delayed development and increased contract
   cost. Initially, the bureau did not establish a requirements management structure or
   collaborative environment with its contractor to transform FDCA into a workable system.
   Nor did it fully engage its principal end users—the regional Census directors, who had to rely
   on FDCA to manage decennial field operations—in requirements development.

   In part because of the late decision to contract out, decennial automation requirements were
   not available for formulating the FDCA bid solicitation (issued in June 2005) and the
   schedule for developing overall operational requirements was not aligned with the schedule
   for developing FDCA. Moreover, Census subject matter experts were not regularly available
   to work on the solicitation or, later, to collaborate with Harris. Instead, a team led by the
   FDCA program office defined general, high-level requirements that gave the contractor a
   high degree of control over the design of operations and the opportunity to innovate an
   automation solution—an approach informally referred to by Census as a “solutions-based
   contract.” However, Census managers were unwilling to change decennial operations to fit
   the contractor’s automation solution, forcing the contractor to redefine its development and
   deployment strategy.

   FDCA was a cost-reimbursement contract, so every change to requirements increased
   contract costs and complicated the development effort. Nevertheless, Mitre reported that
   Census overwhelmed the contractor with thousands of unreconciled requirements, that little
   attention was being paid to the impact of requirements on cost and schedule, and that the
   process for managing requirements lacked clarity. These problems are not new; Census had
   similar difficulty managing information technology requirements for the 2000 decennial.

   Census also did not establish an effective collaborative environment to develop and refine
   requirements until early 2008, when the project was already in crisis. The contractor had
   access primarily to headquarters staff, rather than FDCA end users in the regional offices.
   Ineffective collaboration contributed to the problems in the address canvassing dress
   rehearsal conducted in 2007.

4. Lack of technical planning exacerbated an aggressive approach to develop the Paper-
   Based Operations Control System (PBOCS). The FDCA contract modification also
   included Census’s takeover of the development of the control system for pen-and-paper
   enumeration operations, which became known as PBOCS. PBOCS was used to manage data
   collection for 10 discrete enumeration operations conducted from January to September
   2010. Key PBOCS functionality included assigning workload, monitoring progress, and
   defining quality control (QC) parameters. Because of this late change in plans, the bureau
   was forced to implement an aggressive development schedule. Census deployed PBOCS


                                               25
U.S. Department of Commerce                                                            Final Report
Office of Inspector General                                                           June 27, 2011


   functionality in increments just before the start of each field operation, sometimes before the
   technology was ready. PBOCS’ instability disrupted several field operations, as discussed in
   the following chapters.

   Inadequate technical planning and expertise further contributed to the system’s instability.
   Census did not recognize and plan for the complexity of PBOCS development. As a result, it
   did not have enough time to adequately test the system’s performance by creating a test
   environment separate from the operational environment. The bureau also had to bring in
   experts from the vendors supplying hardware and software products for the project to solve
   serious performance problems that arose during tests in December 2008, just 2 months before
   field operations were scheduled to start.

   With the help of these experts, Census determined that it needed additional hardware to
   improve PBOCS’ performance. Census ordered $4.9 million in additional hardware, but it
   was not available until April, 2 months after field operations started. However, performance
   problems persisted, especially at the beginning of NRFU. Census determined that the
   fundamental cause of the performance problems was the database design, which was
   impractical to change during operations.

   Because of PBOCS’ performance and stability problems, Census had to develop procedural
   workarounds and alternative contingency systems, as well as redesign portions of the field
   operations. The impact was significant: we estimate that costs for coping with PBOCS’
   problems amounted to $11.6 million and delayed processing affected quality checks of the
   collected data.




                                               26
U.S. Department of Commerce                                                                        Final Report
Office of Inspector General                                                                       June 27, 2011


Chapter 2: Address Canvassing

Address Canvassing: A method to verify and update the addresses on the address list and their
locations on Census maps. Address canvassing fieldwork was conducted in two phases—
production and QC

      Final Workload                            Actual Cost                     Percent Budget Spent*

  134.4 million addresses                      $443.6 million                               119

*Dollar amounts come from Census’s Cost and Progress system and represent actual amounts spent and revised
(versus initial) budget estimates.

For the decennial census and its other surveys, it is essential that the Census Bureau have a
complete, up-to-date address and map database of every location where people live in the nation.
Address canvassing was the Census Bureau’s primary means of ensuring a current,
comprehensive address listing and map database; subsequent 2010 enumeration operations
would be negatively affected by errors made during address canvassing. This operation utilized
an automated field data collection methodology. Handheld computers containing Census
addresses and maps and automated assignment and timesheet applications were used nationwide.

The Census Bureau’s method for collecting and tabulating decennial census data is to link
(geographically encode, or geocode) addresses in its Master Address File (MAF) to the bureau’s
digital map collection, known as Topologically Integrated Geographic Encoding and
Referencing (TIGER). Then, the bureau uses a subset of the MAF to generate the address list that
is the basis for decennial operations. Geocoding is the bureau’s way of satisfying its
constitutional mandate to count people where they live for purposes such as redistricting and
apportionment.

The Census Bureau executed its 2010 address canvassing operation—employing nearly 160,000
temporary workers out of 151 local Census offices—from March 30 through July 10, 2009. OIG
staff members observed production address canvassing in 15 different locales in 5 of the 12
Census regions. We also observed 63 QC listers in 37 rural and 14 urban areas across the
country. Additionally, OIG staff members conducted a limited review of the group quarters
validation operation and the contingency-implemented large block operation plan. All of these
operations seek to improve the accuracy of Census’s address list and map.

FINDINGS
1. Address canvassing cost overruns prompted budget reviews of future operations. The
   initial $356 million budget estimate was nearly 25 percent short; the final cost of the
   operation totaled about $444 million. The $88 million overrun was partially caused by
   Census experiencing less employee turnover than predicted. Census was able to cover the
   overrun from several sources, including FY 2009 contingency funds and its fingerprinting
   budget. Because of its cost overrun, Census revised NRFU cost assumptions, as discussed in
   Chapter 7: Nonresponse Operations.


                                                      27
U.S. Department of Commerce                                                           Final Report
Office of Inspector General                                                          June 27, 2011


2. Some listers did not follow address canvassing procedures. Address canvassing
   production listers verified, updated, or deleted addresses; added missing addresses; updated
   streets on the TIGER maps; and geocoded every structure by assigning GPS coordinates
   using the handheld computers. During address canvassing field observations, OIG staff
   observed some listers collecting GPS coordinates from their cars instead of near the housing
   unit’s main entrance, omitting the procedure of knocking on doors, or not thoroughly
   canvassing all roads.

   A number of factors may have contributed to this breakdown in procedures. It is a major
   challenge to train more than 160,000 staff to closely follow complex procedures that ensure
   consistent and accurate results. We observed and were told of instances in which listers
   ignored portions of the training or received instructions from their supervisors to skip some
   procedures. In addition, pressure to finish on schedule may have caused procedural
   breakdowns. OIG received reports from Census field employees that they were under
   pressure to complete their assignments within a limited timeframe to minimize or avoid
   overtime. (Census guidance provided that employees would face termination if they did not
   meet productivity quotas or if they worked unauthorized overtime.)

   The procedural shortcuts listers used to complete their work faster may have resulted in more
   errors. As a result, during NRFU, Census had to implement an ad hoc operation to correct
   potential address canvassing errors. The operation’s purpose was to determine whether listers
   incorrectly deleted addresses. This operation highlights how errors made during address
   canvassing resulted in an increased workload for subsequent operations. The following
   chapters will describe numerous map problems and address list errors that Census should
   have identified, corrected, and processed.

3. Census missed opportunities to retrain or remove poorly performing production listers
   from the initial listing operation. Most field workers were production listers who were
   instructed to canvass their assignment areas (AAs) by walking in a clockwise direction
   around one or more blocks to update their addresses and maps. Once they completed those
   areas, QC listers conducted field checks of address samples to ensure accuracy. If the area
   passed, the QC lister only verified deleted addresses—those housing units that listers were
   unable to locate in the assigned block or that were designated as duplicate addresses. If the
   QC check failed, the entire AA required re-canvassing (see figure 6 below).




                                               28
U.S. Department of Commerce                                                                   Final Report
Office of Inspector General                                                                  June 27, 2011


                       Figure 6. Address Canvassing QC Process




     
    Source: OIG analysis of U.S. Census Bureau information

    But the production portion of the operation ran significantly ahead of schedule, quickly
    outpacing QC. This meant that production listers who had been identified by QC listers for
    not following procedures were not immediately retrained or replaced.

4. Once an area passed QC, listers could not fix identified errors. After the QC check, QC
   listers needed to verify all remaining addresses marked for deletion. Performing as specified
   by Census, the handheld computers only allowed changes to those deleted addresses,
   although QC listers would find additional errors. Consequently, housing units, streets, or new
   developments found, or housing units on the list that should have been deleted, could not be
   updated on the handheld computers during the delete verification component of the QC
   operation. QC listers were restricted to
   updating only the addresses the production
   listers marked for deletion. We observed and
   heard about a number of complaints and
   concerns about errors that could not be
   corrected. Once this issue was identified, QC
   listers were instructed to write down the
   addresses in question, which were included in
   a later operation. We noted varying levels of
   effort and effectiveness in capturing and using
   this information. Errors that were made in
   production but not identified by the QC
   operation (i.e., finding errors on the list after   Linking addresses to housing units is difficult when
   passing QC) suggest that the current address        house numbers are posted on mailboxes, but not the
   canvassing operation is flawed and                  homes. Source: OIG

   fundamental reforms are needed to obtain a
   complete list of the nation’s addresses.

5. Experienced workers updating Census maps and addresses throughout the decade
   could result in an improved list. During the address canvassing dress rehearsal conducted



                                                      29
U.S. Department of Commerce                                                                          Final Report
Office of Inspector General                                                                         June 27, 2011


       in 2007, the Census Bureau found the handheld computers did not meet operational needs
       when used to list blocks containing over 700 housing units. As a result, about 2 percent of the
       total address canvassing workload was performed, using laptops, by regional Census staff
       already trained on the system and software. OIG staff observed these employees conduct the
       operation. Because of their experience, the Census staff required limited training and were
       very knowledgeable about deleting and adding addresses and updating maps.

       We also observed the 2010 group quarters validation—an operation in which the bureau
       attempted to appropriately classify addresses that were identified in earlier operations,
       including address canvassing, as possible group quarters.6 While group quarters validation is
       not part of the address canvassing operation, it is an address list improvement operation that
       involved about 25,000 temporary field workers. The primary purpose of this operation was to
       verify whether a specific address was a housing unit, group quarters, or nonresidential—and,
       if group quarters, to determine the type of group quarters in order to help plan for the actual
       enumeration. Eighty-six percent of the 2,045,110 address workload were identified as
       housing units, nonresidential addresses, and deleted units. Again, Census’s experienced staff,
       familiar with group quarters housing, would be a valuable asset for identifying potential
       group quarters.

       For the 2020 decennial, Census should minimize these labor-intensive operations. As
       discussed earlier (in part I, challenge 2), we suggest using administrative records to assist
       with assessing and improving the entire address list. Census began a formal administrative
       records program in the 1990s to supplement and inform decennial, demographic, and
       geographic programs. The bureau could use this information to update the address list
       throughout the decade.

       We also suggest using the existing, trained workforce, based primarily in the 12 Census
       regions, for the 2020 count. This permanent workforce conducts other Census surveys on an
       ongoing basis. Using these workers to continuously update the maps and address list
       throughout the decade could reduce the size and improve the accuracy of the end-of-decade
       map and address updating operations.




                                                            
6
  Census defines group quarters as places where people live or stay that are normally owned or managed by entities
or organizations providing housing and/or services for the residents (e.g., college residence halls, residential
treatment centers, skilled nursing facilities, group homes, military barracks, or correctional facilities).


                                                               30
U.S. Department of Commerce                                                                 Final Report
Office of Inspector General                                                                June 27, 2011


Chapter 3: Update/Leave (U/L)

U/L Operation: A method to (1) verify and update the addresses on the address list and their
locations on Census maps and (2) deliver a Census questionnaire for the household members to
complete and return by mail

      Final Workload                           Actual Cost                  Percent Budget Spent

  12 million housing units                    $107.3 million                          80



                                        During U/L, enumerators traveled primarily to rural areas
                                        where many homes do not receive mail, or do not have a city-
                                        style address, to leave a questionnaire at places where people
                                        live, stay, or could live or stay. At each of these places,
                                        enumerators interviewed a resident or other knowledgeable
                                        person to determine whether the unit in question was a
                                        housing unit and to verify address information. Enumerators
                                        compared what they discovered at these locations and what
                                        they learned from the interviews to the information on their
                                        address lists and Census maps. Based on their findings,
                                        enumerators verified, corrected, or deleted addresses already
                                        on the list, adding any newly discovered living quarters; they
                                        also updated the maps. At each housing unit, enumerators left
Census enumerators left bagged          a 2010 Census questionnaire for an occupant to complete and
questionnaires on doorknobs. Source:    mail back to the Census Bureau.
U.S. Census Bureau 
                                     OIG staff members observed enumerator training for this
operation. During production, we also observed, from February 24 to April 2, 2010, 15 U/L
enumerators in eight cities nationwide. In each location we observed, at least one of the
following factors affected a significant percentage of the
population: high post-2000 poverty rate, high                     In Fredericksburg, VA, a 50-to-75-
unemployment, high hard-to-count population, high                 unit housing development was
foreclosure rate, and damage from recent natural disasters—       missing from the Census list.
all of which contributed to the risk that those people might
not be counted. We did not observe the QC operation.              In Galveston, TX, three homes
                                                                      destroyed by Hurricane Ike in 2008
FINDINGS                                                              remained on 2010 Census maps.

1. Uncorrected errors on Census maps and address                      In Fort Myers, FL, one U/L
   listings affected the operation. Notwithstanding the               enumerator updated a Census map
   earlier address canvassing operation—which was                     left uncorrected—after he had
   supposed to identify and correct maps to be used by                previously corrected errors on the
                                                                      same map block during address
   enumerators—errors persisted, resulting in an increased
                                                                      canvassing.
   workload to add missed housing units and update maps.


                                                    31
U.S. Department of Commerce                                                                 Final Report
Office of Inspector General                                                                June 27, 2011


   Adding a large number of units and correcting maps indicate that either (1) address
   canvassing had not been thorough or (2) enumerators had to correct the maps again during
   subsequent field operations, resulting in extra wage and mileage costs. The Census Bureau
   did not explain why these mistakes occurred in the map examples we provided to them. We
   noted such errors in several cities where we observed enumerations during other operations.

2. IT systems’ problems impeded workflow, caused
   frustration, and threatened to have serious impacts
   on later operations. Two major systems—PBOCS and
   the Decennial Application and Personnel Processing
   System (DAPPS)—had serious problems that
   significantly slowed down work, necessitating time-
   consuming workarounds and wasting employee
   resources. During this operation, some local Census
   offices had to deal with recurring PBOCS outages and
   delays, resulting in a backlog of cases to be checked
   into the system. DAPPS also experienced slow
   response time, which reportedly led to lost data. A
   hardware upgrade, which took effect on March 22,
   2010, resolved those problems.                            OIG chose to visit U/L regions recently
                                                             affected by natural disaster.
                                                             Source: OIG




                                              32
U.S. Department of Commerce                                                             Final Report
Office of Inspector General                                                            June 27, 2011


Chapter 4: Update/Enumerate (U/E)

U/E Operation: A method to (1) verify and update the addresses on the address list and their
locations on Census maps and (2) conduct an interview to enumerate residents

      Final Workload                      Actual Cost                  Percent Budget Spent

 1.5 million living quarters              $63 million                             49



U/E collected data from communities with special enumeration needs and where many housing
units may not have house-number-and-street-name mailing addresses. Census typically conducts
this enumeration operation on American Indian reservations, in rural Spanish-speaking
communities, and in resort areas with high concentrations of seasonally vacant living quarters.
OIG staff visited all three types of U/E areas, although the majority of our observations were on
the 18 American Indian reservations we visited. Enumerating those who live on expansive rural
reservations is especially difficult because—in addition to having unmarked streets and houses—
reservations often have high numbers of households in which several families share a single
residence.

OIG staff members observed enumerator training, production assignments, and QC of the field
work at 13 different local Census offices in five different Census regions. We observed 47
production enumerators canvass 500 living quarters and obtain 179 interviews. We also observed
20 QC enumerators conduct 14 interviews (out of 35 attempts) and check for missing or
incorrectly deleted housing units in 20 other locations.

FINDINGS
1. Inadequate maps and address listings hampered
   work. Census instructed enumerators to rely on the        On the Yavapai-Apache Nation and in
   bureau’s maps and addresses (which in many cases          Hayward, WI, map spots were on the
   consist of a location and housing unit description        wrong side of the street and not
   rather than a street name and house number) to            corrected by the enumerator.
   associate the pre-addressed questionnaire with the
   correct housing unit. Over 50 percent of the              On the Navajo Nation, an enumerator
   production enumerators, whom we observed using            spent all of her time determining her
   their maps as instructed, encountered deficient           location with respect to the map,
   information such as limited landmarks and misplaced       completing no enumerations.
   map spots. Consequently, enumerators were often
   uncertain whether a questionnaire applied to the          In Window Rock, AZ, an enumerator
   housing unit or if the housing unit needed to be added    deemed a map incorrectly oriented for
   to the map and address list. When enumerators             direction and thus unusable.
   associate questionnaires with the wrong housing unit,
   residents are not counted in the right location.



                                               33
U.S. Department of Commerce                                                          Final Report
Office of Inspector General                                                         June 27, 2011


   If Census conducts an operation similar to U/E in 2020, we suggest the bureau follow up on
   our 2006 Census Test report recommendation to use handheld computers or an inexpensive
   off-the-shelf device equipped with GPS in conjunction with the housing unit GPS coordinate
   information for rural doorstep enumeration operations. At a minimum, the maps that guide
   enumerators around their AAs should include sufficient landmarks and traversable
   canvassing paths to lead to each housing unit on the address list.

2. Quality control experienced considerable delays. While U/E was still underway, the
   largest decennial field operation, NRFU, began. Because of PBOCS’ extremely slow
   performance when supporting multiple operations, the bureau almost exclusively limited its
   use to NRFU. PBOCS’ unavailability resulted in persistent U/E questionnaire backlogs that
   kept QC enumerators from receiving work.

   Every local Census office we visited spoke of delays and workarounds that affected
   schedules and increased opportunities for error—and increased costs by extending hours and
   requiring additional clerical personnel. For the final several weeks of the operation, PBOCS
   was unavailable to generate QC assignments or monitor their progress.

3. U/E procedures were often not followed. Almost 40 percent of the enumerators observed
   by OIG conducted interviews incorrectly, with lapses occurring in both production and QC
   enumerations. Some production enumerators assumed respondents’ race or estimated a date
   of birth if the respondent was unsure, and others did not follow the procedures for
   determining if all household members were enumerated. Interview information should never
   be assumed; potentially missed household members—particularly on American Indian
   reservations, where several families often share a single residence—could negatively affect
   the final enumeration. Further, some QC enumerators lacked the forms necessary to conduct
   interviews at housing units previously missed or incorrectly deleted, which would, if
   uncorrected, contribute to undercounting.

   Census also required U/E enumerators to check the accuracy of the housing unit list by
   canvassing along an indicated path in a clockwise direction, then comparing the residences
   they find to their AA maps and address list. QC canvassing starts at a randomly selected
   house and continues clockwise for a specified number of housing units, seeking to identify
   production enumerators who performed inadequate work, including work that had been
   falsified. About half of the enumerators we observed did not follow canvassing procedures—
   ignoring the maps, using their address lists to verify residences instead of using the
   residences to confirm the accuracy of the lists, or traveling in a non-clockwise direction—
   with QC enumerators just as likely as production enumerators to make these errors.
   Consequently, housing units were potentially placed in the wrong map locations or missed
   entirely.

   The problems complying with canvassing procedures increased because many of the
   indicated paths were along natural barriers, such as ravines or riverbeds (see figure 7). The
   inability to traverse such paths forced enumerators to take alternate canvassing routes that
   risked skipping portions of their AAs, which could lead to residences being missed or double
   counted.



                                              34
U.S. Department of Commerce                                                                  Final Report
Office of Inspector General                                                                 June 27, 2011


             Figure 7: Difficult Canvassing Along a Natural Barrier




                   Source: OIG

4. U/E training was inadequate. To train thousands of staff consistently across the United
   States, Census employs a verbatim training approach (in which a trainer reads internally
   developed training materials word for word to trainees). OIG staff attended training in five
   Census local offices, each with varying types of U/E workload.

                                              We found that errors in U/E training materials—such as
                                              discrepancies between trainer and trainee manuals—
                                              were numerous and disruptive, causing instructors to
                                              frequently stop to redirect trainees to find the correct
                                              page. In addition, at least one instructor did not use the
                                              required visual aid. As a result, the quality of training
                                              suffered. All 2020 Census operations should ensure that
                                              training materials for trainers and trainees are complete
                                              and correct before training is delivered.




      U/E assignment areas provided
      challenging roads for Census workers.
      Source: OIG




                                                     35
U.S. Department of Commerce                                                             Final Report
Office of Inspector General                                                            June 27, 2011


Chapter 5: Enumeration at Transitory Locations (ETL)

ETL: A method to count people at transient locations such as recreational vehicle campgrounds
and parks, commercial and public campgrounds, marinas, campgrounds at racetracks, and fairs
and carnivals

      Final Workload                       Actual Cost                  Percent Budget Spent

 48,180 transitory locations              $12.7 million                           69



ETL counted people living in nontraditional housing. These people do not maintain a residence
in a house or apartment and instead live in motorized recreational vehicles, trailers pulled by a
car or truck, boats in marinas, or any other type of housing that is movable (including tents).
While Census mailed or hand-delivered most questionnaires to known addresses, for ETL
Census staff interviewed and completed a questionnaire to count people at transitory locations
who have no other usual residence most of the time. This operation also counted people who live
in hotels or motels on a transitory basis because they have no other residence.

OIG staff observed 73 different enumerators in 12 local Census offices, covering all 12 Census
regions, from March 22 to April 1, 2010.

FINDINGS
1. Some enumerators neither used Census maps nor updated them consistently. ETL
   required enumerators to systematically traverse each transitory location and update Census
   maps, including (1) correcting road names, (2) updating features, and (3) inserting missing
   map spots and numbers. Enumerators reported that they did not use Census maps because
   they were difficult to use and often inaccurate.
   Also, we observed problems and confusion with
   map spot placement at three local Census offices.     In Waldorf, MD; Bakersfield, CA;
   As a result, enumerators did not always update or     Lafayette, IN; and Jackson, MS; most
   correct maps; therefore, the maps lacked updated      enumerators did not use the Census
                                                         maps and stated the maps were
   information for use in subsequent operations.         unclear. We did not observe any
   Enhanced ETL enumerator training, stressing the       corrections made to the maps.
   importance of updating and correcting Census
   block maps, and adding and deleting map spots
                                                         In Punta Gorda, FL, enumerators did
   during the canvassing portion of the ETL              not know what to do with incorrect
   operation could solve these problems.                 map spots.

2. Census could improve its methodology for
   enumerating people living in transitory situations. According to Census cost and progress
   data as of June 9, 2010, staff collected only 120,660 questionnaires during the operation, at a
   cost of approximately $12.7 million dollars—approximately $105 per questionnaire. While



                                                36
U.S. Department of Commerce                                                                            Final Report
Office of Inspector General                                                                           June 27, 2011


       this operation involves both canvassing and enumeration, the total is more than triple the
       NRFU cost of $34 per household questionnaire.7

       According to Census’s field cost data, almost 80 percent of the local Census offices had
       finished ETL after 2 weeks of a 4-week schedule. The rapid completion of this operation
       could be attributed to two factors: (1) the bureau continued its practice of frontloading—
       over-hiring and training enumerators to compensate for no-shows, drop-outs during training,
       and expected turnover—without sufficient workload for each enumerator for the entire 4
       weeks; and (2) initial transitory workload information was often incorrect or missing,
       distorting the actual number of locations for enumeration. As a result, the bureau paid for 3
                                                   days of training for replacement enumerators whose
                                                   services were not necessary because of lower-than-
                                                   expected turnover. If an operation similar to ETL is
                                                   conducted in 2020, we suggest the Census bureau
                                                   assess the efficiency and effectiveness of this
                                                   operation and develop alternative approaches to
                                                   staffing and other lessons learned.
                                                         3. Budget formulation and assumptions
                                                         overstated the need for funds. Because Census’s
                                                         budget assumptions were based on dated
                                                         information or best guesses in the absence of
                                                         historical data, its ETL budget overstated the need
                                                         for funds. Census developed its $18.4 million ETL
                                                         budget based on staffing plans, including the use of
                                                         internal Census staff workers, contract workers,
                                                         recruiting strategy, staffing ratios, and staff from
                                                         previous operations. Census calculated the number
                                                         of enumerators needed by estimating workload
         An example of a transitory housing unit in the  based on 2002 Economic Census data, concluding
         ETL operation.                                 it would need approximately 6,048 enumerators to
         Source: OIG
                                                        travel to 25,354 transitory locations. At the height
       of ETL, there were 13,223 enumerators and crew leaders traveling to 48,180 transitory
       locations and incurring actual direct field costs of $12.7 million—or 69 percent of the ETL
       field budget. If ETL is conducted in a similar manner, future operation budgets should
       incorporate realistic assumptions in staffing plans and use 2010 Census ETL costs as the
       benchmark for budget formulation.




                                                            
7
  Only direct costs (labor expenses, mileage reimbursement, and incidental costs) are included in the estimates. The
actual costs for enumerating households is much higher because costs for supplies, management, systems, and
infrastructure, etc., are not included.


                                                               37
U.S. Department of Commerce                                                               Final Report
Office of Inspector General                                                              June 27, 2011


Chapter 6: Service-Based Enumeration (SBE)

SBE: A method to count homeless individuals at homeless shelters, soup kitchens, mobile food
vans, and nonsheltered outdoor locations over three days preceding Census Day (April 1)

      Final Workload                       Actual Cost                   Percent Budget Spent

           69,592                          $10.8 million                           102



SBE attempted to count people experiencing homelessness during the 2010 decennial. The
operation, which was conducted from March 29 to March 31, 2010, consisted of a 2-day
enumeration of people at service locations such as shelters and soup kitchens, plus one nighttime
count of persons living in unsheltered locations such as parks or alleys, or under bridges. This
enumeration effort was known as the targeted nonsheltered outdoor location (TNSOL) operation.

OIG staff members observed aspects of the SBE operation during its entire 3-day duration,
primarily focusing on cities with historically high homeless populations. We visited facilities in
eight cities at 13 local Census offices, covering enumerations at 60 sites (29 shelters, 24 soup
kitchens, 6 mobile food vans, and 1 daytime event at an outdoor park). We also observed 24
enumerator teams during TNSOL.

FINDINGS
1. A high risk of duplication occurred in the SBE operation to count homeless people in
   facilities. Unlike any other Census operation, SBE enumerators could collect information by
   observing just three characteristics (i.e., race, gender, and perceived age) of a homeless
   respondent. Census did not require a person’s
   first and last name or birth date. In addition, the
   bureau instructed enumerators to count
   individuals even if they stated that they had
   been previously enumerated; Census presumed             In Atlanta, we observed
   respondents wishing to avoid participating in the enumerators counting the same
   decennial would claim they had already been             respondents more than once at a
   counted. Finally, given that the operation              homeless shelter because the layout
   occurred over 3 days at different sites, there was      of the space made it difficult to
   a high likelihood that the same individual would        determine who had already been
   be encountered and enumerated multiple times.           approached.

   In over half of our observation sites,
   respondents informed the enumerators that they
   had already been counted. In nearly a third of these cases, we observed enumerators
   consistently following the Census procedure to recount individuals who stated that they had
   previously been counted. Some respondents provided their name and date of birth but, for
   those who did not, enumerators collected information by direct physical observation as


                                                38
U.S. Department of Commerce                                                                               Final Report
Office of Inspector General                                                                              June 27, 2011


       instructed. Thus, a high potential for duplication exists.8 In the remaining 70 percent of our
       observations, enumerators did not conform to procedures and did not re-enumerate
       respondents who said they had already been counted.
       If Census conducts an operation similar to SBE in 2020, we suggest the bureau reconsider the
       practice of recounting all individuals who state they were counted but refuse to provide
       information. We propose creating a new record only for those persons who provide their
       name and date of birth; this would help identify multiple records associated with the same
       individual, who may have been counted at other locations earlier in the operation. The bureau
       should also eliminate enumeration by observation in all operations except TNSOL—and then
       only if a respondent is asleep—again, to reduce duplicate enumerations.
2. Missteps in planning and coordination led to inefficient staffing. We observed more
   enumerators than necessary at many food shelters, soup kitchens, and mobile food vans (an
   average ratio of 1:7, or one enumerator for every seven respondents, versus a ratio of 1:25
   per Census guidance). Assuming that each enumerator could interview and process a
   questionnaire in 10 minutes,9 we estimate that Census could have accomplished the 6,000
   enumerations we observed with half the staff. Thus, the size of the team and the duration of
   the shift appeared outsized for the work required, resulting in higher labor costs for the SBE
   operation.
       There are two possible reasons for the overstaffing problem. First, some overstaffing could
       have arisen from local Census office managers using their discretion to assign more
       enumerators for certain sites. Also, local Census office staff asked service center personnel to
       provide information about estimated population levels and the best times to enumerate at
       their sites. This practice was intended to help Census determine staffing levels for
       enumerators. However, the quality of the information received by Census staff may have
       varied because responses to the scripted questions may not have accurately reflected the
       service centers’ usage. Although factors such as weather and changing economic conditions
       make it difficult to estimate populations at service sites, sufficient preparations must occur
       prior to SBE for appropriate scheduling and staffing of SBE operations.
       In general, SBE completed the enumeration of this hard-to-count population. However,
       improvements can be made, such as (1) increasing the quantity and relevance of information
       collected about service sites during the group quarters advance visit operation (specific
       attention devoted to estimating the likely population at service sites would provide a more
       reasonable and efficient staffing allocation) and (2) increasing the frequency of
       communication between the local Census offices and service sites to schedule the best times
       to count individuals experiencing homelessness.



                                                            
8
  Census attempts to unduplicate people in this operation through computer matching. However, these efforts are
hampered by the collection of limited (e.g., no name given) and observed demographic information.
9
  The individual Census report, the questionnaire used for the SBE operation, states that it takes a participant 5
minutes to complete the form. We conservatively estimate that an enumerator would need an additional 5 minutes to
fill out the envelope and listing sheet for each report. We also subtracted 30 minutes from each shift to allow for pre-
enumeration and post-enumeration activities in our workload assumptions calculations.


                                                               39
U.S. Department of Commerce                                                                           Final Report
Office of Inspector General                                                                          June 27, 2011


3. Counting the homeless population in outdoor locations likely resulted in high
   duplication and raised considerable enumerator safety concerns. The previous two
   findings described the challenges integral to enumerating service-based sites; those same
   challenges—duplication and inefficiency—were significantly more problematic during the
   outdoor enumeration. During our 24 TNSOL observations, our staff observed 122
   enumerators counting only 180 respondents. At 16 of the observations, fewer than six
   individuals were enumerated; at four of the sites, no one was enumerated. While SBE
   generally presented duplication risks, there was a more serious risk of duplication during the
   outdoor enumeration because many respondents were sleeping. In such cases, enumerators
   were instructed to fill out a questionnaire by observing three personal characteristics (race,
   gender, and perceived age) and then identify the individual numerically (e.g., “Person 1” or
   “Person 2”) on the form. A similar problem emerged during the 2000 decennial, when 18
   percent of the records collected during TNSOL did not contain a first and last name and thus
   were ineligible for duplication analysis. It cannot be determined whether Census workers had
   already enumerated sleeping TNSOL respondents earlier in the week—at soup kitchens,
   mobile food vans, or shelters. As a result, there was a high risk of duplication due to the
   TNSOL operation.

       Census made enumerators aware of the safety risks and provided them with strategies to
       minimize those risks, but significant safety risks were inevitably present in the attempt to
       enumerate individuals experiencing homelessness. In 4
       out of 24 cases we observed, employees were unprepared Enumerators in Detroit were
       for TNSOL. In one case, enumerators failed to travel as a shot at in their car during
       group as instructed; in another, enumerators had trouble       TNSOL.
       understanding the maps, spending more time than
       necessary in questionable areas. Some of the
       enumerators we observed in Houston, Los Angeles, and Asheville, North Carolina, avoided
       TNSOL sites because of perceived safety threats. Some local Census office managers also
       perceived TNSOL as a major safety risk and canceled or curtailed the TNSOL operation. For
       example, in Towson, Maryland, police told the local Census office manager that TNSOL was
       too dangerous, prompting the manager to reduce the scope of the operation.

       If Census conducts an operation similar to TNSOL in 2020, it should work with stakeholders
       to create a safer and more effective operation and reduce the risks associated with danger and
       duplication.

4. Most Local Census offices reported little value added from the Partnership Program’s10
   involvement in SBE. According to local Census office staff, the Partnership Program
   provided little or no value to the identification of sites for mobile food vans and unsheltered
   outdoor locations. Partnership specialists and assistants were responsible for providing local
   Census offices with sites to visit for both of these operations by January 15, 2010, but many

                                                            
10
  The Census Bureau staffed 680 Partnership and Data Services Program positions established for community
outreach supporting the 2010 decennial census. The Partnership Program primarily assisted decennial operations by
interfacing with hard-to-count groups, populations who have historically been undercounted or traditionally have not
responded well to the decennial census questionnaire (e.g., ethnic or minority populations, renters, or low-income
people).


                                                               40
U.S. Department of Commerce                                                             Final Report
Office of Inspector General                                                            June 27, 2011


   of the offices complained that the Partnership Program’s site lists arrived after the deadline
   had passed and after local office staff had already identified sites. (OIG has issued a separate
   report on the Partnership Program. See our bibliography of reports in appendix C.)




                                                41
U.S. Department of Commerce                                                                           Final Report
Office of Inspector General                                                                          June 27, 2011


Chapter 7: Nonresponse Operations: NRFU and Vacant Delete Check (VDC)

NRFU Operation: A method to enumerate households in areas of the country that received
questionnaires by mail or in person and did not return them

VDC Operation: A method to verify (1) addresses classified as vacant or nonexistent and
(2) new addresses added since NRFU

           Final Workload                                       Actual Cost        Percent Budget Spent*

NRFU Production:
                                                                $1.6 billion                   71
47.2 million housing units

NRFU Reinterview:
                                                               $95.3 million                   101
1.9 million housing units

NRFU Residual:
                                                               $42.6 million                   136
729,143 housing units

VDC: 8.7 million
                                                               $281.7 million                  115
housing units

*Dollar amounts come from Census’s Cost and Progress system and represent actual amounts spent and revised
(versus initial) budget estimates.

NRFU, the largest and most expensive field operation of the 2010 decennial census, officially
ran from May 1 through July 30.11 Like the other operations, it consisted of two components—
the original, or production, enumeration and a QC component known as reinterview—and was
executed by 475,000 temporary workers nationwide. VDC, the next major operation following
NRFU, was carried out between July 1 and August 25 by nearly 130,000 temporary staff.
Questionnaires that Census received after the development of its initial NRFU workload required
enumeration in a last-minute close-out operation called NRFU residual. While OIG made field
observations during this August 2010 operation, we were unable to target specific NRFU
residual activities due to the small number of addresses involved.

VDC was a new decennial operation providing an independent follow-up of addresses classified
as vacant or nonexistent during NRFU (excluding seasonal housing and deletes for military
installations, duplicate addresses, and undeliverable addresses) as well as new addresses, such as
                                                            
11
  NRFU began in April in some areas to enumerate university students at off-campus housing units before they left
for summer break. According to the Census Bureau, 493 of 494 offices completed NRFU prior to the scheduled
completion date of July 10, 2010. The remaining office located in the New York City area did not finish until July
30 because staff had to re-enumerate several thousand questionnaires as a result of an allegation of questionnaire
falsification. For more information, see Whistleblower Allegations Concerning Census Operations in Brooklyn, New
York, the IG’s July 2010 testimony before the House Committee on Oversight and Government Reform, available at
www.oig.doc.gov.


                                                                     42
U.S. Department of Commerce                                                               Final Report
Office of Inspector General                                                              June 27, 2011


those from new construction. Like NRFU production, enumerators went door-to-door conducting
interviews with respondents to complete household questionnaires.

OIG staff members visited 39 local Census offices during NRFU and 17 offices during VDC,
covering all 12 Census regions, from mid-April to late July 2010. OIG observations consisted of:

NRFU                                                 VDC
227 enumerator observations                          64 enumerator observations
2,571 housing unit visits resulting in:              460 housing unit visits resulting in:
       − 799 enumerations                                   − 61 enumerations
       − 136 refusals                                       − 93 vacant verifications
       − 1,816 doors not answered                           − 242 doors not answered
                                                            − 74 housing unit deletions


FINDINGS
1. Variance between the revised NRFU budget and actual costs demonstrate a need for
   improved cost estimation. Census revised the September 2009 NRFU cost estimate of
   $2.7 billion in early 2010 to $2.3 billion—within the range of likely estimates of between
   $1.9 and $2.8 billion (after assessing 1,000 likely cost estimates). The decision to maintain
   2009 enumerator pay rates for 2010 operations was one reason for the cost savings. Even
   with the revision, the total cost of NRFU was significantly lower than the revised budget, as
   shown in figure 8.


                 Figure 8. NRFU Budget, Estimated and Actual
                             (Figures in millions)a
                                  Initial Budget           Revised Budget
  Component                                                                           Actual Cost
                                        Estimate                 Estimate
  Production                               $2,677                   $2,248                   $1,589
  Reinterview                                 $67                       94                       95
  Total                                    $2,744                   $2,342                   $1,684
   a
    Figures have been rounded.
   Source: U.S. Census Bureau



   It is unknown which factors, individually or in combination, such as mail response rate,
   employee productivity, and enumerator replacement rates, contributed to the lower cost for
   NRFU. While the bureau should be commended for containing the cost of this operation—
   the savings constituted a significant portion of Census’s nearly $1.9 billion surplus for FY
   2010—it must take steps to improve its budget estimating process. To improve 2020 cost
   estimates, the Census Bureau should conduct an analysis into the causes of the significant
   cost savings and incorporate those findings into any future validation study to generate a
   more accurate final cost estimate.




                                                    43
U.S. Department of Commerce                                                                          Final Report
Office of Inspector General                                                                         June 27, 2011


2. Employees not adhering to enumeration procedures could have adversely affected the
   quality of the operation. To ensure that the nearly one-half million NRFU enumerators
   nationwide collected data in a consistent manner, enumerators were trained to follow
   standard procedures during their interviews. Those procedures included asking each question
   in the questionnaire exactly as written and recording the respondent’s answers as provided.
   We found that, while most enumerators generally followed these procedures, others did not,
   potentially affecting the quality of the information collected.12

       Some enumerators deviated from interview procedures. During NRFU, enumerators did not
       read their interview scripts verbatim, despite being required and trained to do so. In
       particular, enumerators made assumptions about household members regarding race and
       Hispanic origin rather than asking respondents directly. In addition, we found that some
       enumerators did not ask the questions designed to measure whether a household was over- or
       undercounted. Increasing self-response options—such as the Internet or other emerging
       technologies—that would reduce the NRFU workload would also help eliminate the effects
       of such enumerator bias.

   Some NRFU enumerators sought out proxies for occupied units too early. A proxy
   interview occurs when the enumerator collects questionnaire information from someone
   other than a household member (such as a neighbor or some other knowledgeable person).
   Enumerators should seek out a proxy only after trying six times to contact respondents.
   However, we found that approximately a third of all interviews conducted during the first 3
   weeks of NRFU were proxy interviews—a high number for the start of the operation. We
   also observed enumerators using Internet sources,
   such as online directories, government websites, and     In Soledad, CA, an enumerator
   online real estate sites to find respondent and proxy    stated that maps were too broad
   information. For occupied housing units, relying on      and lacked some basic features
   proxies and online information can affect the quality    like roads.
   of enumeration because the information is less
   reliable than that obtained from actual respondents.
                                                            In Burlington, VT, the local
3. Census enumeration maps were not fully utilized,         Census office manager reported 6
   and the maps and address list contained                  cases where entire apartment
   inaccuracies. Enumerators were to use Census maps        buildings, ranging in size from 20
   to confirm that a housing unit address is correctly      to 100 units, did not receive
   associated with an exact location on the map.            questionnaires in the mail.
   However, enumerators used Census maps in only
   94 OIG observations (41 percent). For the remaining      In Beckley, WV, a manager at a
   observations, enumerators used alternate maps, GPS,      local Census office found map
   or their personal knowledge of an area to locate the     spots placed on the wrong side of
   housing unit. Our observations of enumerators who        the road, missing housing units,
   did use maps identified 33 instances of map              and poor descriptions of housing
   inaccuracies. For VDC, we noted map problems in          units, making enumeration difficult. 
                                                            
12
  We raised several of these issues with the Census Bureau in a report addressed
                                                                                 to senior managers based on our
initial observations during the first 2 weeks of NRFU. The Census Bureau quickly reminded local Census offices to
ensure field employees follow appropriate enumeration procedures.


                                                               44
U.S. Department of Commerce                                                                       Final Report
Office of Inspector General                                                                      June 27, 2011


       14 of 64 observations (22 percent). Examples of problems observed or reported on include

       •      inaccurate or missing map spots,

       •      incorrect housing unit numbers and street names,

       •      duplicate addresses,

       •      missing neighborhoods or apartment buildings, and

       •      housing units located in the wrong place on the map.

       As part of our site visits, OIG staff collected and reviewed copies of NRFU-specific
       Information Communications (INFO-COMMs)13 from field workers to office managers. Our
       review of the forms identified 269 instances of the same map and address list issues listed
       above. Both office managers and enumerators attributed the map problems to the address
       canvassing operation—suggesting that listers failed to follow procedures or experienced
       problems obtaining a GPS signal.

4. The new VDC operation’s use of proxies and designating duplicates was inefficient. The
   main focus of the VDC operation was an independent verification of addresses coded as
   vacant or nonexistent during NRFU. However, Census required VDC enumerators to follow
   the same procedures as the NRFU operation—to make six attempts to contact the household
   resident before enlisting the assistance of a proxy. Addresses in the VDC workload had
   already been coded as vacant or deleted; allowing VDC enumerators to contact proxies
   earlier could reduce the number of visits enumerators had to make to confirm an address
   status. For the 2020 Census, the bureau should consider allowing VDC enumerators to
   contact proxies earlier in the process than they would for NRFU.

       Supplemental addresses constituted 36 percent of the VDC workload. These addresses were
       address additions that were processed after the identification of the initial NRFU workload,
       such as new construction, and required verification. Our observations confirmed that many
       addresses were duplicates, obtained from a prior operation’s questionnaire, or nonexistent,
       such as telephone pole locations and a shopping center. VDC enumerators were not trained to
       compare the VDC address list to the NFRU list to identify potential duplicate addresses.
       Instead, we observed enumerators completing what may have been duplicate questionnaires
       for the same household. Only in mid-July, several weeks into the operation, did Census
       provide guidance to local Census offices on how to identify potential duplicate addresses.

5. Respondent reluctance affected VDC production. During VDC, respondent “fatigue” from
   being questioned repeatedly during multiple Census operations hindered participation. For
   example, large apartment complex managers were typically the only knowledgeable proxies
   for multiple vacant addresses. Apartment managers were repeatedly contacted by multiple
   enumerators throughout NFRU and VDC to determine the status of vacant housing units.

                                                            
13
   An INFO-COMM is a paper form that local Census offices used to document anomalous situations that census
field workers encountered during the conduct of their duties.


                                                               45
U.S. Department of Commerce                                                           Final Report
Office of Inspector General                                                          June 27, 2011


   Often the managers refused to provide information to enumerators who were not the first to
   make contact. This also occurred in rural locations where a few individuals were relied upon
   to provide information for a fairly large geographical area. In 2020, Census should allow
   VDC enumerators to contact proxies earlier in the process for vacant units than the NRFU
   procedures require for occupied units.

6. OIG observations revealed areas for improvement in NRFU enumerator training. As
   described in chapter 4, Census employed a verbatim training approach to ensure consistent
   training of thousands of temporary staff members. In late April 2010, OIG staff attended
   NRFU training at locations near our offices in Atlanta, Denver, Seattle, and Washington,
   D.C. Based on our observations, OIG staff concluded that enumerators could have benefitted
   from additional role-playing and practice with conducting mock interviews. One crew leader
   said that more time should have been allotted for atypical interview scenarios. Crew leaders
   (the trainers) suggested, and our observations confirmed, that incorporating interactive
   instructional materials and visual aids and encouraging more participation would keep the
   class engaged and improve the training. Using instructional videos would also allow the
   training to continue without interruption while crew leaders complete administrative work
   each training day.

   Training several hundred thousand enumerators in such a short period of time is a major
   endeavor for the Census Bureau. For 2020, the bureau should consider modifying its
   verbatim training approach in order to encourage more class participation and reinforce
   Census procedures learned through classroom instruction. Similar to our fourth quarterly
   report recommendation, the bureau should evaluate its training approach and incorporate new
   technologies and more interactive training methods for the 2020 Census NRFU operation.

7. Fundamentally changing NRFU—the largest, most expensive field operation—could
   significantly contain 2020 costs. If properly managed, probably the most promising
   approach to reducing the cost and improving the quality of the decennial census is
   automation. Census could offer alternative response options—such as Internet or web-based
   applications—that potentially reduce the nonresponse workload. Successfully automating
   field data collection would help contain costs and increase accuracy.

   Census should also consider fundamentally different approaches, such as utilizing
   administrative records to reduce the nonresponse workload and improve enumeration
   accuracy. Administrative records could be used to fill out a questionnaire after several
   unsuccessful interview attempts, rather than interview non-household members—such as
   neighbors—who may not be able to answer any or all of the questions. This innovation
   would reduce or eliminate enumerators’ proxy enumeration workload and decrease the
   burden on the public; it could also reduce the number of visits enumerators must pay to
   unoccupied households.

   To accomplish these and other suggested changes will require extensive testing. Conducting
   smaller tests of new processes and procedures throughout the decade, using the American
   Community Survey (ACS) as a test environment, is one mechanism. It would require
   expanding the ACS sample to accommodate testing, but smaller continuous tests could
   facilitate using new technologies, including the Internet and other web-based applications, to


                                               46
U.S. Department of Commerce                                                                       Final Report
Office of Inspector General                                                                      June 27, 2011


       build systems that could be used multiple times for other census and surveys rather than just
       once for the decennial.

8. Census Bureau, the Department, law enforcement agencies, and Congress should
   explicitly address enumerator safety. NRFU highlighted many instances of Census
   employee risk at the hands of respondents. The bureau’s internal incident reports documented
   693 threats against enumerators, including physical and verbal assaults, phone threats, and
   animal attacks. In addition, our review of 1,034 INFO-COMMs14 completed by Census
   enumerators during this operation found nearly half (474) described respondents (including
   proxies) refusing to provide survey information and enumerators unable to enumerate a
   household that was deemed unsafe. Refusals ranged from nonphysical interactions—
   involving respondents yelling at, cursing, and slamming the door on the enumerator—to
   direct threats and physical assaults by respondents.

       Although other laws, such as Title 18, make it a crime to harm federal employees, Title 13
       does not more specifically address assaults, threats, and other criminal conduct directed
       towards Census staff. Further, Title 13 confidentiality provisions criminalize the disclosure
       of Census data in most instances. Our review of the Census INFO-COMMs and incident
       reports indicated that not all threats and other criminal conduct directed at enumerators
       generated either a formal review (incident report) or an enforcement action. There have been
       inconsistent interpretations as to whether Census confidentiality requirements limit the use of
       information observed during the course of enumeration as evidence in criminal prosecutions
       of individuals who harm enumerators or who commit other crimes, such as the falsification
       of Census data by enumerators.

       Given the importance of the safety and well-being of Census employees, we suggest that the
       Census Bureau, the Department, law enforcement agencies, and Congress explicitly address
       enumerator safety. A review of Title 13 and other laws associated with data collection and
       federal employee safety is necessary to determine the legislative and/or agency action that
       will best protect Census employees collecting information at the doorstep. A complete
       solution must—while continuing to strongly protect the confidentiality of respondent
       information—clearly authorize the use of such Title 13 information in the limited situations
       where it is needed for the investigation and prosecution of crimes committed against Census
       employees who are collecting survey and census information.




                                                            
14
  We examined INFO-COMMs relating to various areas of oversight priority. Those pertaining to enumerator safety
were specifically selected to support our concern for the safety of enumerators and should not be considered
reflective or representative of all INFO-COMMs.


                                                               47
U.S. Department of Commerce                                                              Final Report
Office of Inspector General                                                             June 27, 2011


Chapter 8: Coverage Follow-up (CFU), Field Verification (FV), and Count Review

After NRFU, OIG covered three additional operations that helped ensure the population was
counted once, only once, and in the right place in the 2010 Census: coverage follow-up, field
verification, and count review. Our limited reviews of these three activities found no significant
problems to report on during operation implementation.

CFU Operation: A method to identify and contact, by telephone, housing units with potential
missing or duplicate household members to clarify who was living at the address on April 1

      Final Workload                       Actual Cost                   Percent Budget Spent

4,874,410 completed cases                  $82.1 million                           96



CFU—which ran from April 11 through August 14, 2010, attempted to resolve erroneous
enumerations and omissions on mail-in questionnaires or from Census enumeration operations
such as NRFU and U/E. Census designed CFU to (1) identify cases, (2) conduct telephone
                            interviews, and (3) collect response data. A Washington, DC, area
                            operations control center oversaw and monitored 11 nationwide
                            call centers, tracking progress and data quality for the entire
                            operation.

                               Using funds allocated through the American Recovery and
                               Reinvestment Act, Census was able to add 1.1 million cases to the
                               CFU workload, resulting in an estimated initial workload of
                               8 million. After originally calculating a 65 percent completion rate
                               of the total workload, Census completed 4,874,410 cases
                               (66.1 percent) through the scheduled August 14 end date.
 Employees at a CFU call
 center.
 Source: U.S. Census Bureau   OIG staff members observed interviewers and service quality
                              assurance monitors at the Kennesaw, Georgia, CFU call center on
July 26 and 27, 2010. The Kennesaw site employed a large staff and could process calls with
respondents who were non-English speakers or who required assistance due to disabilities. In
addition, we observed quality assurance calibration sessions at the operations control center in
order to sample the work of interviewers and service quality assurance monitors nationwide. We
did not identify any major problems during our review of this operation.




                                                48
U.S. Department of Commerce                                                              Final Report
Office of Inspector General                                                             June 27, 2011




Field Verification Operation: A method to (1) verify the existence of living quarter addresses
that do not match address records already contained in the Census universe and (2) resolve
suspected address duplicates contained within the same census block

      Final Workload                       Actual Cost                   Percent Budget Spent

          455,913                          $21 million                             62

Field verification began on August 6, 2010, and concluded on September 8, 2010. It verified the
existence of respondent-provided addresses and located those housing units on Census maps.
This operation also made a final determination about potentially duplicate housing units
identified in later operations.

OIG staff reviewed procedures and tracked the operation’s progress using the Census cost and
progress system. We also observed field operations in Towson, Maryland, on August 10, 2010.
In Towson, enumerators followed procedures as written in the enumerator manual. Local Census
office staff stated that most of the workload did not consist of duplicate addresses, suggesting
that the address canvassing operation failed to thoroughly identify all of the housing units in the
area.

Census completed the operation before the September 8 deadline and spent only $21 million of
the almost $34 million budget. We did not identify any major problems during our review of this
operation.

Count Review: A number of activities to (1) enhance the accuracy of the census and (2) provide
specific federal and state stakeholders with the opportunity to review and provide feedback on
count tabulations prior to release of census data



The count review process had three components: a traditional count review (population and
housing tabulations), a housing unit address review, and a group quarters review. Before 2010,
decennial census operations only performed the traditional count review, a reasonableness check
for the tabulations of data collected during decennial operations. Census made the 2010 count
review process more proactive, adding the housing unit address review (to compare addresses
located during address canvassing with satellite maps and GPS locations compiled by Google,
Bing, and others)—which added 88,000 new housing units to the 2010 decennial workload—and
the group quarters review.

OIG examined the group quarters review and traditional count review components of the 2010
count review program. The 2010 group quarters review aimed to ensure that state apportionment
counts included all group quarters homes (e.g., prisons, universities, and nursing homes). To
conduct the review, members of the Federal–State Cooperative Program (FSCPE) from 42 states


                                                49
U.S. Department of Commerce                                                           Final Report
Office of Inspector General                                                          June 27, 2011


and Puerto Rico assembled lists of statewide group quarters. During the week of August 13, the
participating FSCPE officials traveled to the Census Bureau to compare their group quarters lists
with the Census results, investigating missing and misplaced group quarters. OIG staff observed
the weeklong review process, which looked for inefficiencies, inconsistent procedures, and ways
to improve the program. After the review, OIG staff spoke with program supervisors and almost
all participating FSCPE officials to assess the process. We did not identify any significant
problems with the group quarters review; however, based on our observations and feedback from
FSCPE officials, additional resources—such as more time and additional staff from both the
states and Census—could improve the program.

During traditional count review, Census analysts reviewed five different Census files between
August 2010 and February 2011. To complete the reviews, analysts compared data from each
Census file with benchmark population estimates. They then identified tracts with large
population (or population percentage) increases or decreases or tracts with a zero population.
Census’s review of the first two files found no anomalous tracts that warranted further
investigation. OIG met with traditional count review managers to examine the bureau’s
methodology for the first two file reviews. No issues were identified; therefore, we did not
review the remaining three files.




                                               50
U.S. Department of Commerce                                                              Final Report
Office of Inspector General                                                             June 27, 2011


                              Part III: OIG Recommendations


Over the previous decade and throughout last year’s decennial field operations, OIG provided
oversight of the Census Bureau’s efforts to plan and carry out the 2010 Census. Through our
quarterly reports and audits, inspections, and evaluations, we kept Congress, the bureau, and the
public informed about the obstacles Census faced to successfully complete a cost-effective,
efficient, and accurate decennial.

From our oversight, we also developed findings on ways to improve the 2020 Census. The table
below contains recommendations resulting from these findings. In our view, these are the crucial
challenges the bureau needs to resolve successfully in order to conduct the 2020 Census on time,
within budget, and with manageable risk.



                                                               Applicable
                                                               Challenge (Part     Relevant OIG
      Recommendation
                                                               I of this report)   Report

 1.   Conduct an analysis of the causes of the significant
      cost savings for 2010 field operations and incorporate                          New in this
                                                                 Challenge 1        Final Report to
      those findings into any future validation studies to
      generate a more accurate final cost estimate.                                    Congress

 2.   Obtain and use independent cost estimates to validate                           New in this
      internally derived cost estimates (that include            Challenge 1        Final Report to
      contingency reserves).                                                           Congress
 3.   Develop a transparent decision documentation
      strategy to account for 2020 census program and            Challenge 1       Quarterly Report
      spending decisions.                                                                 1

 4.   Improve the transparency of the decennial budget
      process, especially the presentation of surplus (or                          Quarterly Report
                                                                 Challenge 1
      elimination of the surplus) as shown in the monthly                                 4
      financial management reports.

 5.   Reevaluate the practice of frontloading and develop a
      better process for developing workload and cost            Challenge 1       Quarterly Report
      assumptions.                                                                        4




                                                51
U.S. Department of Commerce                                                          Final Report
Office of Inspector General                                                         June 27, 2011


 6.    Explore alternative approaches for conducting the
       2020 Census that include (1) Internet and web-based
       response options, (2) automated field data collection                     New in this
       alternatives, (3) utilizing administrative records, and   Challenge 2   Final Report to
       (4) incorporating into the decennial process                               Congress
       experienced field representatives who conduct
       nondecennial Census surveys each year.

 7.    Improve communication with the public on
       concurrent enumeration surveys and better inform                        Quarterly Report
                                                                 Challenge 2
       people who did not receive decennial census forms at                           4
       their homes how they might participate.

 8.    Increase the sample size of the American Community
       Survey (or other surveys) to use as a test environment                    New in this
                                                                 Challenge 3   Final Report to
       for conducting smaller tests of new processes,
       procedures, and systems.                                                   Congress

 9.    Thoroughly review and improve decennial census                          Quarterly Report
                                                                 Challenge 3
       training methods.                                                              4
 10.   Explicitly address enumerator safety in collaboration                     New in this
       with the Department, law enforcement agencies, and        Challenge 3   Final Report to
       Congress.                                                                  Congress

 11.   Regarding requirements management:

       a. Institutionalize effective requirements
       management processes that balance Census
       stakeholder needs and make appropriate cost,
       schedule, and performance tradeoffs;                                      New in this
                                                                 Challenge 4   Final Report to
       b. Ensure that major stakeholders fully participate
                                                                                  Congress
       throughout the entire acquisition process; and

       c. Maintain accurate cost estimates on cost
       reimbursement contracts to align them with
       identified requirements and subsequent changes.

 12.   Align system development schedules with operational                       New in this
       deadlines to allow adequate time to test systems          Challenge 4   Final Report to
       before their deployment.                                                   Congress
 13.   Continuously update the maps and address lists
       throughout the decade, supplementing these activities                     New in this
                                                                 Challenge 5   Final Report to
       with targeted address canvassing at the end of the
       decade.                                                                    Congress

 14.   Review both address canvassing practices and post-
       data collection processing to minimize errors on the      Challenge 5   Quarterly Report
       maps that support subsequent operations.                                       4




                                                  52
U.S. Department of Commerce                                                                   Final Report
Office of Inspector General                                                                  June 27, 2011


    15.   Develop acquisition lifecycle oversight procedures to                           New in this
          manage project risk that correspond to government           Challenge 6       Final Report to
          and industry best practices.                                                     Congress
    16.   Strengthen and implement a risk management
          strategy and relevant contingency plans before              Challenge 6      Quarterly Report
          starting 2020 decennial census operations.                                          1

    17.   Develop a 2020 decennial lifecycle schedule early in
          the decade, finalizing the operational schedules as                          Quarterly Report
                                                                      Challenge 6
          soon as practicable after research and testing are                                  1
          completed.

    18.   Regarding the partnership program and special
          enumeration operations:

          a. Improve advance coordination with partnership
          organizations,

          b. Ensure Partnership specialist skills are aligned                          Quarterly Report
                                                                      Challenge 7
          with project requirements,                                                          4
          c. Establish procedures to mitigate the risk of
          duplicate enumerations, and

          d. Institute a more effective process for selecting and
          confirming sites to enumerate.

    19.   a. Specify how to align Partnership activities and
          objectives with local Census office schedules to
          remedy current systemic shortcomings.

          b. Ensure joint Partnership- local Census office
          manager training as part of the decennial process.                              Partnership
                                                                      Challenge 7
                                                                                        Program Reportb
          c. Refine the recruitment and hiring process and
          training of Partnership assistants.

           d. Provide Partnership assistants adequate electronic
           resources to do their job.
    a
      This recommendation was presented as a suggestion, rather than a formal recommendation, to the
    Census bureau in our fifth quarterly report to Congress.
    b
     See OIG report number OIG-11-023-I: 2010 Census: Cooperation Between Partnership Staff and
    Local Census Office Managers Challenged by Communication and Coordination Problems. April 8,
    2011.




 



                                                      53
U.S. Department of Commerce                                                            Final Report
Office of Inspector General                                                           June 27, 2011


                         Summary of Agency and OIG Comments


In addition to introducing new recommendations, this report includes many previously reported
findings and recommendations. On June 23, 2011, the Census Bureau provided a formal
response to our draft report, which we have incorporated into our final report as appropriate. The
full text of the response is included as appendix D.

In its response, Census stated that comments and formal action plans for existing
recommendations had already been provided to OIG. Census also stated that it had no
fundamental disagreements with the new recommendations in this report and that all of our
recommendations are consistent with the stated strategies and principles of the bureau’s 2020
planning efforts.

Although Census concurred with most of our findings and recommendations, it did disagree with
our recommendation to include law enforcement agencies in a review of Title 13 to ensure clear
measures for enforcing Census laws and protecting the safety of Census employees. In its
response, the bureau expressed concern that law enforcement personnel would receive Title 13
information or other confidential census information as part of these discussions. However, law
enforcement agencies do not need to receive Title 13 information or other confidential census
information to participate in discussions of how Title 13 could better address enumerator safety.
Given their responsibility for responding to and prosecuting attacks on Census enumerators, law
enforcement personnel have particular insight into the types of changes that may be needed to
facilitate prosecution of census-related crimes and further improve enumerator safety. We further
note that the language to which Census has objected was included in OIG’s Fifth Quarterly
Report to Congress, which had been provided to the bureau for review and comment prior to its
release. Census did not object at that time. Therefore, OIG continues to recommend that the
bureau collaborate with law enforcement agencies on ways to ensure enumerator safety under
Title 13.




                                                54
U.S. Department of Commerce                                                          Final Report
Office of Inspector General                                                         June 27, 2011


                                          Appendix A:
                              Objectives, Scope, and Methodology


The 2010 decennial census enumerated a population of more than 308 million people living in
the United States. Decennial operations included the enumeration of the population in
households and other living quarter types, including enumeration of the homeless, the accurate
and secure processing of personal information, and the effective and efficient use of government
resources. Our review focused on the numerous activities required to conduct an accurate census.
The primary objective of this review was to evaluate the quality and efficiency of the 2010
decennial census operations.

To accomplish our objectives, we

   •   reviewed operational manuals and other documentation;

   •   monitored the 2010 Census field operations for conformity to specifications and accuracy
       of the list development and enumeration;

   •   monitored and evaluated decennial systems;

   •   ascertained the adequacy of physical, personal, and information technology security
       controls to protect the privacy of information respondents provided to the Census Bureau;

   •   monitored the Census Bureau’s effectiveness at managing the operations’ costs,
       schedules, and risks;

   •   reviewed 2010 enumeration payroll and progress;

   •   determined whether any fraudulent enumerations occurred; and

   •   monitored 2010 decennial census-related OIG hotline complaints.

As part of our intensive planning efforts, we prioritized our 2010 sample of local Census office
areas for analysis and observations. We chose these areas based on their highest perceived risk
(e.g., the bureau’s demographic measures of enumeration difficulty, operational factors such as
blocks with large populations, and significant socioeconomic changes such as high foreclosure
rates or high growth rates). Throughout the 2010 decennial census operations, we assigned more
than 100 OIG staff members to Census projects. To ensure nationwide coverage, we initially
selected at least one early local Census office per Census region. Next, we identified a smaller
sample conveniently located near OIG offices. Additional selections ensured adequate
representation of population density and specific hard-to-count populations (for example, we
included the rural Mississippi Delta and the hurricane-affected Galveston, Texas, areas). We
balanced the sample by including several areas that were not considered hard to count. Finally,
we reviewed areas where reported or perceived problems arose. (For the scope of our review, see
the chapters on specific field operations in part II.)


                                               55
U.S. Department of Commerce                                                         Final Report
Office of Inspector General                                                        June 27, 2011


Our field operation reviews included observation of operation-specific 2010 Census enumerator
training classes; field operations (e.g., administration of the Census questionnaire properly,
updating and correcting maps and address list correctly where applicable); and local Census
office procedures, practices, and conditions. We also conducted interviews with Census
headquarters, regional and local managers, and staff. By the close of our review, we had
conducted observations in all 50 states.

We conducted the review from April 2008 through November 2010, under the authorities of the
Inspector General Act of 1978, as amended; Departmental Organization Order 10-13, dated
August 31, 2006, as amended; and in accordance with the Quality Standards for Inspections
(revised January 2005) issued by the President’s Council on Integrity and Efficiency.




                                              56
U.S. Department of Commerce                                                               Final Report
Office of Inspector General                                                              June 27, 2011


                                    Appendix B:
            Local Census Offices Visited by OIG Staff During 2010 Census

      Mobile, AL              Atlanta, GA             Portland, ME          Oklahoma City, OK
      Little Rock, AR         Savannah, GA            Dearborn, MI          Beaverton, OR
      Flagstaff, AZ           Honolulu, HI            Detroit, MI           Folcroft, PA
      Peoria, AZ              Waianae, HI             Duluth, MN            Providence, RI
      Phoenix, AZ             Sioux City, IA          St. Louis, MO         Beaufort, SC
      Tucson, AZ              Idaho Falls, ID         Jackson, MS           Charleston, SC
      Bakersfield, CA         Champaign, IL           Meridian, MS          Columbia, SC
      El Dorado Hills, CA     Chicago, IL             Southaven, MS         Nashville, TN
      Fresno, CA              Fort Wayne, IL          Asheville, NC         Houston, TX
      Hollywood, CA           Lafayette, IN           Greenville, NC        Laredo, TX
      Los Angeles, CA         Kansas City, KS         Wilmington, NC        League City, TX
      Salinas, CA             Louisville, KY          Omaha, NE             Provo, UT
      Stockton, CA            Houma, LA               Concord, NH           Henrico, VA
      Vista, CA               New Orleans, LA         Middlesex-Union, NJ   Richmond, VA
      Denver, CO              Woburn, MA              Rocky Hill, NJ        Burlington, VT
      Lakewood, CO            Baltimore, MD           Las Vegas, NV         Everett, WA
      New Haven, CT           Catonsville, MD         Reno, NV              Olympia, WA
      Washington, DC          Frederick, MD           Bronx, NY             Seattle, WA
      New Castle, DE          LaPlata, MD             Brooklyn, NY          Tacoma, WA
      Fort Myers, FL          Largo, MD               New York, NY          Eau Claire, WI
      Hialeah, FL             Rockville, MD           Queens, NY            Green Bay, WI
      Jacksonville, FL        Towson, MD              Rochester, NY         Superior, WI
      Miami, FL               Waldorf, MD             Watertown, NY         Mt. Hope, WV
      Punta Gorda, FL         Augusta, ME             Canton, OH            Charleston, WV
      Sarasota, FL            Bangor, ME              Lawton, OK            Morgantown, WV

          American Indian Reservations Visited by OIG Staff During 2010 Census
      Reservations               Location(s)
      Houlton Maliseet           Houlton, ME
      Penobscot                  Indian Island, ME
      Menominee                  Keshena, WI; Bowler, WI; Gresham, WI
      Oneida                     Oneida, WI
      Lac Courte Oreiles         Hayward, WI
      Fond du Lac                Lake Nebagamon, WI
      Yavapai-Prescott           Prescott, AZ
      Yavapai-Apache             Camp Verde, AZ; Clarkdale, AZ
      Hopi                       Mesa, AZ; Keams Canyon, AZ; Shungopavi, AZ; Kykotsmovi, AZ;
                                 Polacca, AZ; Sipaulovi, AZ
      Gila River                 Bapchule, AZ Casa Blanca, AZ; Laveen, AZ
      Navajo Nation              Window Rock, AZ; Fort Defiance, AZ; Sawmill, AZ; Chinle, AZ,
                                 McKinley County, NM; Crownpoint, NM; Rock Springs, NM;
                                 Standing Rock, NM
      Pine Ridge                 Jackson County, SD; Bennett County, SD
      Rosebud                    Mission, SD
      Cheyenne River             Ridgeview, SD; Eagle Butte, SD; Cherry Creek, SD
      Eastern Cherokee           Cherokee, NC
      Standing Rock              Standing Rock, ND
      Wind River                 Riverton, WY; Fort Washakie, WY; Crowheart, WY
      Crow                       Big Horn County, MT
 



                                                 57
U.S. Department of Commerce                                                            Final Report
Office of Inspector General                                                           June 27, 2011


                             Appendix C: Bibliography:
               OIG Reports and Testimony on the 2010 Decennial Census


Below is a list of all reports produced by OIG that are related to the 2010 Census. We have
provided cross-referencing where these reports directly contributed to the information, findings,
and recommendations in this final report. These documents are available in the OIG Census
Reading Room at www.oig.doc.gov.

                                                                                  See Part II,
OIG Products:
                                                                                  Chapter(s):

U.S. Department of Commerce Office of Inspector General, April 2011.                 1, 2, 7
     Top Management Challenges for the 2020 Census, testimony before
     the Senate Committee on Homeland Security and Governmental
     Affairs. Washington, DC: Department of Commerce OIG.

——, April 2011. 2010 Census: Cooperation Between Partnership Staff
   and Local Census Office Managers Challenged by Communication
   and Coordination Problems. Washington, DC: Department of
   Commerce OIG.

——, February 2011. 2010 Census: Contract Modifications and Award-
   Fee Actions on the Decennial Response Integration System (DRIS)
   Demonstrate Need for Improved Contracting Practices, OIG-11-020-
   A. Washington, DC: Department of Commerce OIG.

——, January 2011. 2010 Census: Fifth Quarterly Report to Congress,                   3,7, 8
   OIG-11-017-I. Washington, DC: Department of Commerce OIG.

——, November 2010. 2010 Census: Partner Support Program Lacked                          6
   Adequate Controls for Monitoring Purchases and Ensuring
   Compliance, OIG-11-013-A. Washington, DC: Department of
   Commerce OIG.

——, December 2010. Top Management Challenges Facing the
   Department of Commerce, OIG-11-015. Washington, DC:
   Department of Commerce OIG.

——, September 2010. Respondent Data Safeguards in the Decennial
   Response Integration System (DRIS), OIG-19888. Washington, DC:
   Department of Commerce OIG.




                                                58
U.S. Department of Commerce                                                 Final Report
Office of Inspector General                                                June 27, 2011


                                                                        See Part II,
OIG Products:
                                                                        Chapter(s):

——, July 2010. Review of Leases of Maryland Local Census Offices.
   Washington, DC: Department of Commerce OIG.

——, July 2010. Whistleblower Allegations Concerning Census Operations        7
   in Brooklyn, New York, testimony before House Committee on
   Oversight and Government Reform. Washington, DC: Department of
   Commerce OIG.

——, June 2010. Letter to Senators Mikulski and Shelby regarding 2010
   Decennial Census Oversight. Washington, DC: Department of
   Commerce OIG.

——, June 2010. Letter to Representatives Mollohan and Wolf regarding
   2010 Decennial Census Oversight. Washington, DC: Department of
   Commerce OIG.

——, June 2010. Early Observations Indicate That Some Nonresponse             7
   Follow-up Procedures Are Not Being Followed and Others Are
   Lacking, OAE-19893-01. Washington, DC: Department of Commerce
   OIG.

——, May 2010. 2010 Census: Fourth Quarterly Report to Congress,         3, 4, 5, 6, 7
   OIG-19791-4. Washington, DC: Department of Commerce OIG.a

——, March 2010. 2010 Census: An Assessment of the Census Bureau’s            7
   Preparedness, testimony before the House Committee on Oversight
   and Government Reform, Subcommittee on Information Policy,
   Census, and National Archives. Washington, DC: Department of
   Commerce OIG.

——, February 2010. 2010 Census: Update of Schedule, Cost Risk
   Management, and Communications Activities, testimony before the
   Senate Committee on Homeland Security and Governmental Affairs,
   Subcommittee on Federal Financial Management, Government
   Information, Federal Services, and International Security.
   Washington, DC: Department of Commerce OIG.

——, February 2010. 2010 Census: Third Quarterly Report to Congress,       1, 2, 7
   OIG-19791-3. Washington, DC: Department of Commerce OIG.*




                                           59
U.S. Department of Commerce                                                 Final Report
Office of Inspector General                                                June 27, 2011


                                                                        See Part II,
OIG Products:
                                                                        Chapter(s):

——, January 2010. Top Management Challenges Facing the Department
   of Commerce, OIG-19884. Washington, DC: Department of
   Commerce OIG.

——, December 2009. 2010 Census: Second Quarterly Report to                1, 2, 7
   Congress, OIG-19791-2. Washington, DC: Department of Commerce
   OIG.

——, October 2009. Census 2010: Importance of the Master Address File         2
   and Steps Census Can Take to Strengthen Its Quality, testimony
   before the House Committee on Oversight and Government Reform,
   Subcommittee on Information Policy, Census, and National Archives.
   Washington, DC: Department of Commerce OIG.

——, October 2009. 2010 Census: Update of Key Decennial Operations,           2
   testimony before the Senate Committee on Homeland Security and
   Government Affairs, Subcommittee on Federal Financial
   Management, Government Information, Federal Services, and
   International Security. Washington, DC: Department of Commerce
   OIG.

——, September 2009. 2010 Census and Integrated Communications
   Campaign, testimony before the House Committee on Oversight and
   Government Reform, Subcommittee on Information Policy, Census,
   and National Archives. Washington, DC: Department of Commerce
   OIG.

——, August 2009. Problems Encountered in the Large Block Operation           2
   Underscore the Need for Better Contingency Plans, OIG-19171-02.
   Washington, DC: Department of Commerce OIG.

——, August 2009. 2010 Census: First Quarterly Report to Congress,            1
   OIG-19791-1. Washington, DC: Department of Commerce OIG.*


——, May 2009. Observations and Address Listers’ Reports Provide              2
   Serious Indications That Important Address Canvassing Procedures
   Are Not Being Followed, OIG-19636-01. Washington, DC:
   Department of Commerce OIG.




                                          60
U.S. Department of Commerce                                                  Final Report
Office of Inspector General                                                 June 27, 2011


                                                                         See Part II,
OIG Products:
                                                                         Chapter(s):

——, March 2009. Census 2010: Revised Field Data Collection                    1
   Automation Contract Incorporated OIG Recommendations, But
   Concerns Remain Over Fee Awarded During Negotiations, CAR
   18702. Washington, DC: Department of Commerce OIG.

——, February 2009. Census 2010: Delays in Address Canvassing                  1
   Software Development and Testing, Help Desk Planning, and Field
   Office Deployment Have Increased Operational Risk, OIG-19171.
   Washington, DC: Department of Commerce OIG.

——, November 2008. Top Management Challenges Facing the
   Department of Commerce, OIG-19384. Washington, DC: Department
   of Commerce OIG.

——, October 2008. Census 2010: Dress Rehearsal of Address Canvassing          2
   Revealed Persistent Deficiencies in Approach to Updating the Master
   Address File, OSE-18599. Washington, DC: Department of
   Commerce OIG.

——, August 2008. Census 2010 Decennial: Census Should Further Refine
   Its Cost Estimate for Fingerprinting Temporary Staff, OIG-19058-1.
   Washington, DC: Department of Commerce OIG.

——, June 2008. Census 2010 Decennial: OIG Reviews Through the
   Decade Identify Significant Problems in Key Operations, OIG-19217.
   Washington, DC: Department of Commerce OIG.

——, September 2007. Follow-up Review of the Workers' Compensation
   Program at the Census Bureau Reveals Limited Efforts to Address
   Previous OIG Recommendations, IPE-18592. Washington, DC:
   Department of Commerce OIG.

——, September 2007. Census 2010: Key Challenges to Enumerating                4
   American Indian Reservations Unresolved by 2006 Census Test,
   OSE-18027. Washington, DC: Department of Commerce OIG.

——, September 2006. Enumerating Group Quarters Continues to Pose
   Challenges, OIPE-18046-09-06. Washington, DC: Department of
   Commerce OIG.




                                           61
U.S. Department of Commerce                                                         Final Report
Office of Inspector General                                                        June 27, 2011


                                                                                See Part II,
OIG Products:
                                                                                Chapter(s):

——, March 2006. Valuable Learning Opportunities Were Missed in the                   2
   2006 Test of Address Canvassing, OIG-17524-03-06. Washington,
   DC: Department of Commerce OIG.

——, August 2005. FDCA Program for 2010 Census Is Progressing, but                    1
   Key Management and Acquisition Activities Need to be Completed,
   OSE-17368. Washington, DC: Department of Commerce OIG.

——, September 2004. Improving Our Measure of America: What the 2004
   Census Test Can Teach Us in Planning for the 2010 Decennial
   Census, OIG-16949-1. Washington, DC: Department of Commerce
   OIG.

——, September 2003. MAF/TIGER Redesign Project Needs Management
   Improvements to Meet Its Decennial Goals and Cost Objective, OSE-
   15725. Washington, DC: Department of Commerce OIG.

——, March 2002. Selected Aspects of Census 2000 Accuracy and
   Coverage Evaluation Need Improvements Before 2010, OIG-14226.
   Washington, DC: Department of Commerce OIG.

——, March 2002. Improving Our Measure of America: What Census 2000
   Can Teach Us in Planning for 2010, OIG-14431. Washington, DC:
   Department of Commerce OIG.

a
 Recommendations for the first, third, and fourth quarterly reports were provided to Census in
separate memorandums.




                                              62
U.S. Department of Commerce                                          Final Report
Office of Inspector General                                         June 27, 2011


                      Appendix D: Agency Response to Draft Report




                                          63
U.S. Department of Commerce         Final Report
Office of Inspector General        June 27, 2011




                                                    

OIG-19791-6


                              64
